i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the District of Columbia
Court of Appeals
(March 12, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Judgment
in the District of Columbia Court of
Appeals
(January 16, 2019) . . . . . . . . . . . . App. 3
Appendix C Order in the Superior Court of the
District of Columbia
(April 15, 2016) . . . . . . . . . . . . . . App. 19
Appendix D Order in the Superior Court of the
District of Columbia
(February 16, 2016) . . . . . . . . . . App. 28
Appendix E Order in the Superior Court of the
District of Columbia
(November 19, 2015) . . . . . . . . . . App. 41
Appendix F Omnibus Order in the Superior Court
of the District of Columbia
(September 4, 2015) . . . . . . . . . . App. 47
Appendix G First Amended Complaint in the
Superior Court of the District of
Columbia
(June 17, 2015) . . . . . . . . . . . . . . App. 68
Appendix H 1997 Church Constitution of The
Beulah Baptist Church of Deanwood
Heights, D.C.. . . . . . . . . . . . . . . App. 110

App. 1

APPENDIX A
DISTRICT OF COLUMBIA
COURT OF APPEALS
No. 16-CV-444
CAB1406-15
[Filed March 12, 2019]
___________________________________
DR. MARCUS TURNER, SR., et al,
)
Appellants,
)
)
v.
)
)
ALVA C. HINES, et al,
)
Appellees.
)
___________________________________ )
BEFORE:

Glickman,* Fisher, Thompson, Beckwith,
Easterly,* and McLeese, Associate
Judges, and Nebeker,** Senior Judge.
ORDER

On consideration of appellants’ consent motion for
extension of time to file a petition for rehearing or
rehearing en banc, and appellants’ lodged petition for
rehearing or rehearing en banc, it is

**

Judge Nebeker replaced Judge Farrell on this panel following
Judge Farrell’s retirement.
Chief Judge Blackburne-Rigsby did not participate in this case.

App. 2
ORDERED that appellants’ motion for extension of
time to file a petition for rehearing or rehearing en
banc is granted, and the Clerk shall file appellants’
petition for rehearing or rehearing en banc. It is
FURTHER ORDERED by the merits division* that
the petition for rehearing is denied; and it appearing
that no judge of this court has called for a vote on the
petition for rehearing en banc. It is
FURTHER ORDERED that the petition for
rehearing en banc is denied.
PER CURIAM
Copies to:
Honorable Robert R. Rigsby
Civil Division
Quality Management Unit
Seth Rosenthal, Esquire
Calvin R. Nelson, Esquire
Venable LLP
575 7th Street, NW
Washington, DC 20004
Copies e-served to:
Joseph G. Cosby, Esquire
Joshua Counts Cumby, Esquire
Bradford S. Bernstein, Esquire
James A. Sullivan, Esquire
bep

App. 3

APPENDIX B
DISTRICT OF COLUMBIA
COURT OF APPEALS
No. 16-CV-444
[Filed January 16, 2019]
________________________________
DR. MARCUS TURNER, SR., ET AL., )
APPELLANTS,
)
)
V.
)
)
ALVA C. HINES, ET AL.,
)
APPELLEES.
)
________________________________ )
Appeal from the Superior Court
of the District of Columbia
(CAB-1406-15)
(Hon. Robert D. Okun, Trial Judge)
(Argued May 10, 2017

Decided January 16, 2019)

Before GLICKMAN and EASTERLY, Associate Judges,
and FARRELL, Senior Judge.
MEMORANDUM OPINION AND JUDGMENT
PER CURIAM: Appellees, professed members of
Beulah Baptist Church of Deanwood Heights, sued
appellants – Dr. Marcus Turner, Sr., the Church’s
Pastor; Russell Moore, Jr., the former Chair of the

App. 4
Church’s Trustee Board; and Beulah Community
Improvement Corporation (BCIC), a non-profit secular
entity affiliated with the Church – in Superior Court
for breach of fiduciary duties, conversion, unjust
enrichment, and civil conspiracy. This appeal is from
the Superior Court’s denial of appellants’ motion to
dismiss the complaint on standing and First
Amendment grounds.1 Appellants claim that (1) this
court has jurisdiction to review that denial in this
interlocutory appeal under the collateral order
doctrine; (2) appellees lack standing to maintain their
suit because they are not bona fide members of the
Church; and (3) even taking all the factual allegations
of the complaint as true, the suit must be dismissed at
this juncture under the First Amendment ecclesiastical
abstention doctrine as a matter of law. Appellees
dispute each of those claims.
We conclude that we have jurisdiction at this time
to review the Superior Court’s rejection of appellants’
First Amendment immunity claim, but not its rejection
of their standing argument. We further conclude that,
at this early stage of the proceedings, the ecclesiastical
abstention doctrine does not require dismissal of the
suit, because it appears that appellants’ liability may
be adjudicated under neutral principles of tort law
without infringing on appellants’ claimed First
Amendment immunity.

1

The court dismissed the claims against appellant Turner on other
grounds, namely res judicata, but it did not enter a separate final
judgment of dismissal for him and he remains a defendant in the
case. The dismissal of the complaint against Turner is not the
subject of the present appeal.

App. 5
I. The Allegations of the Amended Complaint
The amended complaint is brought by eighteen
individuals who allege that they are bona fide members
in good standing of Beulah Baptist Church and
beneficiaries of the property held by the Church in
trust for its members.2 Their complaint charges that
appellant Turner, with the assistance of appellants
Moore and BCIC,3 abused that trust by engaging for
over a decade in a series of unauthorized, wasteful, and
improper transactions involving Church funds and real
property. The complaint alleges the following as the
main elements of this charge.
(1) Between 2003 and 2008, Turner and Moore,
purporting to act on behalf of the Church, purchased at
least seven properties in the Deanwood Heights
neighborhood and entered into at least five loan
agreements encumbering the Church’s real property.
The last of these loans enabled BCIC to borrow $3.23
million in July 2008 (apparently to extinguish the

2

With their opposition to appellants’ motion to dismiss on standing
grounds, each appellee submitted a declaration under penalty of
perjury that he or she is on the Church’s membership roll, has a
membership number provided by the Church, and serves (or has
served) on Church ministries open only to Church members.

3

The complaint describes BCIC as a nonprofit corporation “created
to help raise funds and assist the Church in its work to improve
the Deanwood Heights community” in various ways. Unlike the
Church itself, BCIC can receive government funding because it is
a secular organization. The complaint further alleges that (as
shown in the allegations we summarize above) BCIC is controlled
by Turner and is “Turner’s alter ego even more than it is the
Church’s.”

App. 6
remaining accumulated debt on the previous loans)
with the Church as guarantor. This transaction also
involved an unauthorized and secret conveyance of a
valuable ¾-acre lot from the Church to BCIC for no
consideration in return. In violation of the 1997 Church
Constitution then in effect, Turner and Moore allegedly
engineered these property and loan transactions
without the knowledge and approval of the Church’s
Trustee Board (or its membership in general).4 In fact,
throughout the period, Turner falsely represented that
the Church was debt-free and that the property
transactions did not encumber the Church’s property.
The truth was revealed in 2014 when a notice appeared
in The Washington Post that Church property was to be
auctioned off in a foreclosure sale. To prevent this,
Turner was forced to sell off certain Church properties,
including the lot the Church had conveyed to BCIC for
free.

4

The Church’s 1997 Constitution is incorporated in the complaint
by reference. Under that Constitution, the duty “[t]o review and/or
sign all contracts and legal documents on behalf of the Church”
and “[t]o have responsibility for the acquisition . . . of all church
property” was assigned to the Trustee Board. The Constitution did
not assign similar duties or powers to the Pastor. The Constitution
also assigned financial oversight and similar responsibilities to
other boards, committees, and officers of the Church. The Board of
Deacons, for example, had the duty to “[k]now at all times” the
financial condition of the Church, and a separate Budget-Finance
Committee bore responsibility for preparing the Church’s annual
budget for submission to the entire membership. The Constitution
required the Church’s Pastor (Turner), among other things, to
“seek the advice of the official boards regarding recommendations
for policy and program changes.”

App. 7
(2) With the help of Moore and a few other
confederates, Turner also secretly and repeatedly
withdrew funds from the Church operating account for
his own personal benefit. Turner allegedly
charged to the Church credit card meals, fuel for
his personal car, dry cleaning, vacations,
personal lawn care and exorbitant cell phone
bills, which included home internet and cable
television services. He had the Church pay for
his own continuing education, his wife’s
education and his son’s tuition, including, for
example, $14,000 in tuition payments in 2008.
He had the Church cover personal tax liabilities,
including $3,000 in 2008. Moreover, he had the
Church establish and pay premiums on life
insurance policies for both him and his wife, and
had the Church pay his wife $500 on at least two
occasions for delivering speeches at the Church.
All of these expenditures were unauthorized; the
Church Constitution vested responsibility for the
Church’s property and finances, including Turner’s
salary, in the Trustee Board and other Church bodies,
and they allegedly did not know of or approve Turner’s
use of Church funds to pay his personal expenses.5
(3) When Turner was having personal financial
difficulties in 2008, he arranged with Moore for two

5

Under the Constitution, the Board of Deacons was charged with
“[i]nsur[ing] that the Pastor is paid a salary which is fair to him
and the Church,” and the Trustee Board with “pay[ing] all salaries
and debts incurred by the Church and such other disbursements
as the Church deems necessary.”

App. 8
secret payments from the Church to him in the total
amount of $75,000 out of its general reserve fund.
These payments were supposedly for services Turner
had performed as a real estate “consultant” to the
Church and BCIC and in securing government grants
to acquire property for BCIC. There had been no
contract or agreement to pay Turner for such services
and the amount of the payments was arbitrary. Again,
in violation of the Church Constitution, these payments
were made without the knowledge and approval of the
Trustee Board (or the Church membership).
(4) In 2011, Turner, aided by Moore, arranged for
the Church to borrow $900,000, secured by Church
property, ostensibly to pay for renovations of Church
facilities (though the renovation contracts, had they
been fully performed, would have totaled only
$380,000). Much of that money is unaccounted for; the
complaint alleges on information and belief that Turner
drew down the funds and used them for “purposes
unrelated to the mission of the Church.” The Church
paid only $162,500 in total for the (partial) renovation
work that was performed, and Turner claimed to the
contractor that the Church could not pay the rest of
what it owed him, which amounted at the time to only
$57,500. Instead, Turner borrowed $105,000 from the
contractor, telling him that the Church and BCIC
needed it to help pay off the July 2008 loan. Turner
thereafter refused to repay the contractor and claimed
that his loan had been a donation. The contractor sued
the Church, BCIC, and Turner for the money he was
owed; the Church incurred legal fees and expended
funds to settle the lawsuit.

App. 9
The complaint further alleges that as a result of
Turner’s financial mismanagement, self-dealing,
continuing concealment of financial arrangements, and
refusal to disclose information about the Church’s
financial condition to its membership, the Church is in
financial distress and can no longer maintain its
facilities, fully fund positions and scholarships, or carry
on other basic activities as it had been doing.
Based primarily on the foregoing activities, the
complaint charges Turner and Moore with breach of
fiduciary duty, unlawful conversion of Church funds,
and unjust enrichment from the diversion of those
funds to pay Turner’s personal expenses. The
complaint also charges Turner, Moore, and BCIC with
civil conspiracy to commit those torts. The relief sought
includes an accounting to determine how much Turner
owes the Church and an award of monetary damages.
II. Appellate Jurisdiction
The denial of a motion to dismiss a complaint
usually is not immediately appealable because it does
not finally dispose of the case.6 We have held, however,
that where the motion to dismiss asserts a claim of
absolute ecclesiastical immunity from suit under the
First Amendment, the denial of that claim is
appealable under the collateral order doctrine if the
immunity turns on an issue of law rather than on a
factual dispute.7 Therefore, we have jurisdiction to
6

7

Heard v. Johnson, 810 A.2d 871, 876 (D.C. 2002).

Id. at 877; Bible Way Church of Our Lord Jesus Christ of the
Apostolic Faith of Washington, D.C. v. Beards, 680 A.2d 419, 426

App. 10
review the ruling on appeal to the limited extent of
determining whether appellants “are entitled to the
First Amendment immunity based on the allegations in
the complaint,”8 or whether the litigation can proceed
under the assumption that those allegations are true.
We reach a different conclusion as to our
jurisdiction to review the Superior Court’s threshold
ruling that appellees have standing to maintain their
suit based on their declarations stating they are
enrolled members of the Church in good standing.9 To
be amenable to immediate interlocutory review under
the collateral order doctrine, a trial court ruling must
satisfy three requirements: “(1) it must conclusively
determine a disputed question of law, (2) it must
resolve an important issue that is separate from the
merits of the case, and (3) it must be effectively
unreviewable on appeal from a final judgment.”10 The

(D.C. 1996); United Methodist Church v. White, 571 A.2d 790, 79293 (D.C. 1990).
8

Brief of Appellants at 16.

9

“[A]s a general principle, bona fide members of a church have
standing to bring suits as trust beneficiaries when there is a
dispute over the use or disposition of church property.” Mount
Jezreel Christians Without a Home v. Board of Trustees of Mt.
Jezreel Baptist Church, 582 A.2d 237, 239 (D.C. 1990). Bona fide
membership can be established based on the church’s membership
roll and financial records. Id. at 240-41. See also Williams v. Board
of Trustees of Mt. Jezreel Baptist Church, 589 A.2d 901, 908 (D.C.
1991).

10

McNair Builders, Inc. v. Taylor, 3 A.3d 1132, 1135 (D.C. 2010)
(internal quotation marks omitted).

App. 11
ruling on appellees’ standing did not satisfy either the
first or the third of these requirements. It was not a
“conclusive” determination because there remains a
genuine factual dispute over appellees’ standing.11 And
unlike a ruling denying a claim of immunity as a
matter of law, a ruling on standing is not “effectively
unreviewable” on appeal from a final judgment.12
Appellants argue that this particular ruling is
effectively unreviewable after a final judgment has
been rendered because litigating the issue will
impermissibly involve the court in second-guessing the
Church’s religious decisions concerning its
membership.13 We are not persuaded by this assertion.
The court may need to determine whether and when
the Church admitted or excluded appellees from

11

While appellees filed declarations stating they were on the
Church’s membership roll, had membership numbers, and were in
the Church’s ministries, Turner countered with a declaration
asserting the opposite. Ultimately, the Superior Court will need to
resolve this factual dispute, presumably after discovery in which
the membership roll and other pertinent documents are produced
(if they are available). See Grayson v. AT&T Corp., 15 A.3d 219,
245-46 (D.C. 2011) (en banc) (explaining that the standing inquiry
may be different depending on the stage of the litigation).

12

See, e.g., Summit Med. Assocs., P.C. v. Pryor, 180 F.3d 1326,
1334-35 (11th Cir. 1999) (citing cases). See also Freyre v.
Chronister, 2018 U.S. App. LEXIS 35141 *1, *5-6 (11th Cir. Dec.
14, 2018).

13

Appellants note that the Church Constitution makes “faith in
the Lord Jesus Christ” a qualification for membership.

App. 12
membership, but not, so far as now appears, why the
Church did so.14
III. Ecclesiastical Abstention
Appellants claim to be immune from suit because,
generally speaking, the First Amendment requires civil
courts to abstain from disputes over “matters of church
government as well as those of faith and doctrine.”15
But this principle “does not mean . . . that churches [or
their ecclesiastical personnel, e.g., ministers] are above
the law or that there can never be a civil court review
of a church action.”16 On the contrary,
civil courts may resolve disputes involving
religious organizations as long as the courts
14

See, e.g., Jackson v. George, 146 A.3d 405, 416-18 (D.C. 2016)
(holding that dispute over purported termination of church
memberships was justiciable where the issue turned on the
authority of the decision makers without requiring resolution of
any religious questions; “[c]ontrary to appellants’ assertions, Judge
Nash was not required to determine whether appellees . . . or
anyone else had ‘accepted Jesus Christ’”).
15

Hosanna-Tabor Evangelical Lutheran Church & Sch. v. EEOC,
565 U.S. 171, 186 (2012) (quoting Kedroff v. Saint Nicholas
Cathedral of Russian Orthodox Church in North America, 344 U.S.
94, 116 (1952)). See also, e.g., Meshel v. Ohev Shalom Talmud
Torah, 869 A.2d 343, 353-54 (D.C. 2005); Heard, 810 A.2d at 879.
In Hosanna-Tabor, the Court clarified that this doctrine of
abstention “operates as an affirmative defense to an otherwise
cognizable claim, not [as] a jurisdictional bar.” 565 U.S. at 195 n.4.
16

Heard, 810 A.2d at 879 (brackets added). See also Family Fed’n
for World Peace v. Moon, 129 A.3d 234, 249 (D.C. 2015) (“In sum,
the mere fact that the issue before the court involves a church or
religious entity does not thereby bar access to our courts.”).

App. 13
employ neutral principles of law and their
decisions are not premised upon their
consideration of doctrinal matters, whether the
ritual and liturgy of worship or the tenets of
faith. . . . Even where the civil courts must
examine religious documents in reaching their
decisions, the “neutral principles” approach
avoids prohibited entanglement in questions of
religious doctrine, polity, and practice by relying
exclusively upon objective, well-established
concepts of law that are familiar to lawyers and
judges.[17]
Disputes over church property are “especially”
amenable to resolution by civil courts employing
neutral principles of law applicable in all property
disputes.18
“[I]n determining whether the adjudication of an
action would require a civil court to stray
impermissibly into ecclesiastical matters, we look not
at the label placed on the action but at the actual
issues the court has been asked to decide.”19 As set
forth in the complaint, the main issues here appear to
be entirely secular and to be governed entirely by
neutral principles of law. They are not issues of
religious doctrine, church governance, or the like;
unlike in some past cases this court has seen, they do
17

Meshel, 869 A.2d at 354 (quoting Jones v. Wolf, 443 U.S. 595,
602, 603 (1979) (quotation marks omitted)).
18

Family Fed’n, 129 A.3d at 248. See also Heard, 810 A.2d at 880.

19

Meshel, 869 A.2d at 356.

App. 14
not involve review of policy matters reserved to
ecclesiastical judgment. They are simply issues of the
permissible use or disposition of Church property; they
primarily boil down to whether Turner, with Moore’s
and BCIC’s assistance, misappropriated the Church’s
money for his own use and encumbered or disposed of
the Church’s real estate without the authorization
required by the Church Constitution. The resultant
causes of action – breach of fiduciary duty, conversion,
unjust enrichment, and civil conspiracy to commit
those torts – all “rely upon doctrines basic to our legal
system” and are resolved by applying familiar, welldeveloped, neutral principles of law.20
The causes of action in this case are justiciable
notwithstanding that they rely on provisions of the
Church’s Constitution specifying the allocation of
responsibility for and authority over Church property,
contracts, and financial matters.21 As we explained in
Bible Way Church, a civil court can enforce standards
of behavior that a church has formally adopted.22 And
20

Family Fed’n, 129 A.3d at 249. In contrast, in Bible Way Church,
supra, footnote 7, and Kelsey v. Ray, 719 A.2d 1248 (D.C. 1998), we
held that the plaintiffs had failed to allege the applicability of
neutral accounting and reporting criteria that were clear and
objective enough to allow a court to examine a church’s financial
practices without involving itself in policy determinations
committed to ecclesiastical judgment. See Kelsey, 719 A.2d at 1249,
1252-53; Bible Way Church, 680 A.2d at 428-29.
21

22

See footnotes 4 and 5, supra.

680 A.2d at 428 (“If the church has, in fact, adopted clear,
objective accounting and reporting standards that eliminate all
doctrinal decision-making in their enforcement, then arguably a

App. 15
a church’s constitution is a contractual agreement that
a court may construe using neutral principles of law,
such as “the ‘objective law’ of contracts, under which
the written language embodying the terms of an
agreement governs the rights and liabilities of the
parties.”23 In this case, for instance, the court may have
to construe and apply Article 5, Section 3 (c)(2) of the
Constitution, which specified that it was the Trustee
Board’s duty “[t]o review and/or sign all contracts and
legal documents on behalf of the Church . . . .” We see
no reason why this task (or the construction and
application of any other provision of the Constitution
pertinent to this case) should entangle the court in any
questions of religious doctrine, polity, or practice. That
some provisions of the Constitution contain religious
terminology should not give rise to such impermissible
entanglement in the absence of a “material dispute
between the parties” over the meaning of the religious

civil court can apply them – much as a court can resolve secular
disputes over church property – because the church itself has
obviated all First Amendment concerns.”).
23

Meshel, 869 A.2d at 361.

App. 16
language.24 The existence of such a material dispute in
this case has not been shown and is not apparent.25
Thus, at this early stage of the case, “it would
appear that this dispute is susceptible to resolution by
‘neutral principles of law’ not requiring any forbidden
inquiry into matters barred by the First Amendment.”26
24

Id. at 354. In Meshel, the court construed the corporate bylaws
of an Orthodox Jewish congregation to determine that the parties
had an enforceable agreement to arbitrate their dispute by
presenting it to a “Beth Din.” The court held that it could make
this determination applying neutral principles of contract
interpretation because there was no material dispute between the
parties as to the meaning of that or other religious terms in the
bylaws. See also id. at 357 (“It is undeniable that ‘Beth Din,’ ‘Din
Torah,’ ‘Orthodox rabbi,’ and ‘Halacha’ are religious terms that
lend the case a certain surface feel of ecclesiastical content. When
we look beneath the surface, however, we see an action to compel
arbitration that turns not on ecclesiastical matters but on
questions of contract interpretation that can be answered
exclusively through the objective application of well-established,
neutral principles of law.”).
25

Appellants appear to rely on a provision of the 1997
Constitution, Article IV, Section 1, stating that the Pastor of the
Church “shall serve as overseer, leader, advisor, and teacher”
(emphasis added). Assuming arguendo that “overseer” is a
religious term (as appellants contend it is), it is not clear that the
parties disagree over its meaning or that, if they do, the dispute is
either unresolvable by a court or material to the issues raised by
the complaint. Appellants do not seem to claim, for example, that
Turner’s status as “overseer” entitled him to misappropriate
Church funds for his own use (in fact, they disavow any such claim
in their appellate briefing) or override provisions of the
Constitution committing contractual and other matters to the
Trustee Board.
26

Family Fed’n, 129 A.3d at 249.

App. 17
We therefore hold that the litigation may proceed, with
the understanding that “going forward, if it becomes
apparent to the trial court that this dispute does in fact
turn on matters of doctrinal interpretation or church
governance, the trial court may grant summary
judgment to avoid ‘excessive entanglement with
religion.’”27
Accordingly, we hereby affirm the Superior Court’s
denial of appellants’ motion to dismiss the amended
complaint on First Amendment and standing grounds
and remand the case for further proceedings.
ENTERED BY DIRECTION OF THE COURT:
/s/Julio A. Castillo
JULIO A. CASTILLO
Clerk of the Court
Copies to:
Honorable Robert D. Okun
Director, Civil Division
Seth Rosenthal, Esquire
Calvin R. Nelson, Esquire
Venable LLP
575 7th Street, NW
Washington, DC 20004

27

Second Episcopal Dist. African Methodist Episcopal Church v.
Prioleau, 49 A.3d 812, 818 (D.C. 2012).

App. 18
Copies e-served to:
Joseph G. Cosby, Esquire
Bradford S. Bernstein, Esquire
James A. Sullivan, Esquire
Joshua Counts Cumby, Esquire

App. 19

APPENDIX C
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
Civil Action No. 2015 CA 001406 B
Judge Robert R. Rigsby
Calendar 10
Next Event: Scheduling Conference,
April 8, 2016
[Filed April 15, 2016]
___________________________________
ALVIN C. HINES et al.,
)
)
Plaintiffs,
)
)
v.
)
)
Dr. MARCUS TURNER, SR., et al.,
)
)
Defendants.
)
___________________________________ )
ORDER
I. Introduction
This matter comes before this Court on Beulah
Defendants’ Motion for Reconsideration, or in
Alternative, for Certification of Appeal under D.C. Code
§ 11-721(d) and the Defendant Columbia Bank’s Motion

App. 20
for Certification of Appeal under D.C. Code § 11-721(d).
Upon consideration of Defendants’ motions and
Plaintiff’s Oppositions, and the entire record herein,
Beulah Defendant’s Motion for Reconsideration or in
Alternative, for Certification of Appeal under D.C. Code
§ 11-721(d) is denied and the Defendant Columbia
Bank’s Motion for Certification of Appeal under D.C.
Code § 11-721(d) is denied.
II. Relevant Background
Plaintiffs, church members, brought suit against
their pastor, board member and non-profit company,
Defendant Marcus Turner, Defendant Moore and
Beulah Community Improvement Corporation, allege
breach of fiduciary duty, conversation and unjust
enrichment.
On September, 4, 2015, the Court dismissed
Defendants Turner, More and BCIC on First
Amendment protection grounds. However, on
December 31, 2015 the Court issued a sua sponte Order
requesting parties brief on whether the recent decision,
Family Federation for World Peace and Unification
International v. Moon No. 14-CV-94, required
reinstatement of the claims against Turner, Moore and
BCIC. Upon receiving the parties’ briefs and
considering the prior precedent, an Order was entered
on February 16, 2016, dismissing Defendant Turner
but reinstating the claims against Defendants Moore
and BCIC because those claims could be adjudicated
under neutral legal principles of law without violating
First Amendment protections.

App. 21
In appealing the reinstatement of Defendants
Moore and BCIC, Beulah Defendants contends that the
Court erred because it only relied on Family
Federation, without consideration for the prior Court of
Appeals decision. Specifically, the Defendants claim
that the Court misinterpreted its task of reconciling the
Family Federation case with prior cases and that there
is a continued conflict with the Family Federation
ruling and the Court of Appeals’ prior rulings, that
warrants a dismissal of the claims against Beulah
Defendants. Additionally, the Defendants argued that
should the Court not reconsider the motion, a motion
for an interlocutory appeal should be granted. The
Plaintiffs, however, claim that there is no continued
conflict with the prior case law and therefore, the
motion for reconsideration and interlocutory appeal
should be denied.
III. Analysis
A. Beulah
Defendants’
Reconsideration

Motion

for

Under Rule 59(e), in order to grant a motion for
reconsideration the Court must find there was a
“manifest error of law or fact.” In re Estate of
Derricotte, 885 A.2d 320, 324 (D.C. 2005); Coleman v.
Lee Washington Hauling Co., 388 A.2d 44, 46 (D.C.
1978)
Here, in interpreting the Family Federation ruling
in conjunction with prior case law the Court
sufficiently delineated how the current case facts and
law applies to the protections provided by the First
Amendment and the neutral principals of law.

App. 22
Specifically using the Family Federation analysis of the
neural principles of law, the Court sufficiently outlined
that the claims brought against Beulah Defendants
“invoke[d] an ancient and well-developed legal are with
deep roots in Anglo-American law” because the cause
of action could be decided on familiar legal principals,
similar to those brought in Family Federation. 129
A.3d at 240. Additionally, in reinstating BCIC the
Court specifically emphasized that the ruling was not
based on “nature of defendants’ non-profit or secular
status,” but rather, on the neutral application of
Plaintiffs’ allegations, also similar to the facts present
in Family Federation. Therefore, the ruling reinstating
the Defendants did not rely on any improper
application of law or fact. Coleman, 388 A.2d at 46.
Considering that the Court of Appeals relied on
prior cases to delineate and clarify applying the neutral
principles of law doctrine, it is unsupported that there
is a persistent conflict in the Court of Appeals that
would merit granting a motion for reconsideration.
Family Federation, 129 A.3d at 250 (citing Bible Way
Church of Our Lord Jesus Christ of Apostolic Faith of
Wash., D.C. v. Beards, 680 A.2d 419 (D.C. 1996), and
Meshel v. Ohev Sholom Talmud Torah, 869 A.2d 343,
353 (D.C. 2005)). In deciding Family Federation, the
Court of Appeals clarified the scope of the neutral
principles law doctrine. Family Federation, 129 A.3d at
250. Applying the new scope of the doctrine does not
amount to a “manifest” error of law or fact. In re Estate
of Derricotte, 885 A.2d 320 at 324.
Conclusively, Family Federation clarified the
boundaries for which to analyze First Amendment

App. 23
claims and the neutral principles of law doctrine.
Therefore, in the February 16, 2016 Order the Court
determined that using the clarification that Family
Federation provided; it erred in initially dismissing all
Beulah Defendants. In reinstating Defendants Moore
and BCIC the Court did not misinterpret its task nor
create a continued conflict in prior precedent; rather, it
sufficiently applied Family Federation’s clarification of
the First Amendment boundaries to the prior
precedents that the Court of Appeals has set forth.
Thus, under Rule 59(e), there has not been a
“manifest” error of law or fact in reinstating the Beulah
Defendants in the matter and Defendants’ motion for
reconsideration is denied.
B. Beulah Defendants Alternative Motion for
Certification of Appeal under D.C. Code
§ 11-721(d)
Under D.C. Code 11-721(d), in order to grant an
interlocutory appeal the Court must determine
whether the issue at question is (1) a controlling issue
of law in the matter (2) for which there is a
“substantial ground for a difference of opinion,” and
(3) a ruling would “materially advance” the termination
of the matter. Ford v. ChartOne, Inc., 834 A.2d 875,
878 (D.C. 2003). Granting an interlocutory appeal
required the issue “exceptional and not merely” an
accelerated review of a “difficult issue.” Medlantic
Health Care Group, Inc. v. Cunningham, 755 A.2d
1032, 1034 (D.C. 2000).
In order to have a “controlling issue of law,” the
issue must not only be dispositive of the entire matter,

App. 24
but also it must have a lack of documented precedent”
Medlantic Health Care Group, Inc,755 A.2d at 1034.
Despite the fact that the First Amendment claim is an
asserted defense, it would entitle the parties to a
qualified immunity that would be dispositive in barring
the claim. However, even if the First Amendment as an
asserted defense surpasses the first bar of an
interlocutory appeal, there is not a “substantial ground
for difference of opinion.” Ford, 834 A.2d at 878.
Moreover in order to surpass the requirement for a
“substantial ground” for differing opinion, it must be
more than a “mere disagreement . . . with the district
court’s ruling,” but rather a clear “split in [the]
district.” Ford 834 A.2d at 878 (D.C. 2003); Arias v.
DynCorp., 856 F. Supp. 2d 49, 55 (D.D.C 2012). The
asserted defense of the First Amendment, as well as
the neutral principles of law doctrine has a wellestablished history of interpretation in the Courts. This
is demonstrated by the analysis provided in Family
Federation, which elaborates on the clear boundaries
that the Courts have set in their evaluation. Family
Federation, 129 A.3d at 250 (citing Bible Way Church
of Our Lord Jesus Christ of Apostolic Faith of Wash.,
D.C. v. Beards, 680 A.2d 419 (D.C. 1996), and Meshel v.
Ohev Sholom Talmud Torah, 869 A.2d 343, 353 (D.C.
2005)).
Additionally, a ruling on whether Beulah
Defendants are immune under the First Amendment
will not “materially advance” the termination of this
case because there are other remaining claims at issue
that will be unnecessarily delayed if the Court of
Appeals has to make a determination based on clearly

App. 25
established precedent. Judicial Watch, Inc v. Nat’l
Energy Policy Dev. Grp., 233 F. Supp 2d 16, 18 (D.D.C.
2002). Upon additional consideration that Defendant
SMS Financial anticipates bringing claims against the
Beulah Defendants and they will remain in the
litigation, the appeal will not likely “materially
advance” termination of this matter. Ford, 834 A.2d at
877.
The heavy burden for an interlocutory appeal is
meant for issues that are so “exceptional” that an
immediate appeal will promote judicial efficiency.
Medlantic Health Care Grp, Inc, A.2d at 1033. The
Beulah Defendants have not sufficiently met that
heavy burden and granting the appeal would go
against judicial efficiency. Id. Therefore, Beulah
Defendants’ Motion for Certification of Appeal on the
First Amendment issue under D.C. Code § 11-721(d) is
denied.
C. Defendant Columbia Bank’s Motion for
Certification of Appeal under D.C. Code
§ 11-721(d)
In responding to Beulah Defendants motion for
appeal, Defendant Columbia Bank filed an additional
motion for an interlocutory appeal supporting Beulah
Defendants motion for an appeal “provided that” the
Court also certifies an appeal for Judge Okun’s prior
rulings on the issue of standing. Notwithstanding
Plaintiffs’ contention that the motion is not ripe and is
untimely filed, the issue of standing does not
sufficiently meet the heavy burden necessary for an
interlocutory appeal under D.C. Code § 11-721(d).
Specifically, the issue of standing has been repeatedly

App. 26
substantiated by prior case law and therefore does not
have a substantial ground for disagreement, required
for an interlocutory appeal. The Defendant’s reliance
on the specific use of “trustees” in the Court of Appeals
ruling in Kelsey v. Ray, 719 A.2d 1248 (D.C. 1998), is
not sufficient to meet the burden of a “substantial
group for disagreement.” Ford, 834 A.2d at 878.
Granting an interlocutory appeal requires an issue
to be “exceptional and not merely” an accelerated
review of a “difficult issue.” Medlantic Health Care
Group, Inc.,755 A.2d at 1034. While the issue of
standing can be difficult, the Defendants have not
sufficiently proven that it is an issue in this matter
that is “exceptional” for which there is a substantial
ground for disagreement. Id. Therefore Defendant
Columbia Bank’s motion for an additional certification
of interlocutory appeal under D.C. Code § 11-721(d) is
denied.
Accordingly, it is this 15th day of April, 2016, hereby
ORDERED that Beulah Defendants’ Motion for
Reconsideration, or in Alternative, for Certification of
Appeal under D.C. Code § 11-721(d) in regards to the
First Amendment issue is DENIED it is further
ordered;
Columbia Bank Defendant’s Motion for Certification
of Appeal under D.C. Code § 11-721(d) in regards to the
issue of Plaintiffs’ standing is DENIED.

App. 27
SO ORDERED.
/s/Robert R. Rigsby
ROBERT R. RIGSBY
Associate Judge

App. 28

APPENDIX D
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
Case No. 2015 CA 001406 B
Judge Robert Okun
Calendar 10
[Filed February 16, 2016]
___________________________________
ALVIN HINES et al.,
)
)
Plaintiffs,
)
)
v.
)
)
DR. MARCUS TURNER, SR., et al., )
)
Defendants.
)
___________________________________ )
ORDER
This matter is before the Court on Plaintiffs’ Brief
in Support of Reinstatement of Claims Against
Defendants BCIC, Turner and Moore Based on the
Court of Appeals’ December 24, 2015 Decision in
Family Federation for World Peace and Unification
International v. Hyun Jin Moon (“Plaintiffs’ Brief”) and
the Beulah Defendants’ Supplemental Brief on First
Amendment (“Defendants’ Brief”). Based upon the

App. 29
Court’s review of Plaintiffs’ Brief, Defendants’ Brief,
and the entire record of the case, Plaintiff’s request to
reinstate their claims against Defendants BCIC,
Turner and Moore will be granted in part and
denied in part, for the reasons set forth below.
RELEVANT PROCEDURAL HISTORY
The case has a long, and somewhat tortured,
procedural history, which will not be repeated here. To
cut to the chase, on September 4, 2015, this Court
granted the Beulah Defendants’ Motion to Dismiss on
the grounds that the allegations in the Complaint were
insufficient to confer subject matter jurisdiction on this
Court, because the First Amendment barred the
Court’s resolution of the Plaintiffs’ claims. On
November 19, 2015, this Court denied Plaintiffs’
Motion for Reconsideration.
On December 24, 2015, the Court of Appeals issued
an opinion in Family Federation for World Peace and
Unification International v. Hyun Jin Moon, No. 14CV-94, in which the Court of Appeals reversed the
grant of a motion to dismiss, on First Amendment
grounds, against a non-profit corporation established
under the auspices of a church. Upon this Court’s
review of the Court of Appeals’ opinion, this Court
issued a sua sponte Order on December 31, 2015
requiring the parties to address the issue of whether
the Court of Appeals’ opinion should cause this Court
to reconsider its November 19, 2015 denial of Plaintiffs’
Motion for Reconsideration with respect to Defendant
Beulah Community Improvement Corporation
(“BCIC”).

App. 30
On January 15, 2016, Plaintiffs filed their Brief in
support of reinstatement of their claims against the
Beulah Defendants. Plaintiffs argued that the Family
Federation decision demonstrated that Plaintiffs’
common law tort claims for conversion, unjust
enrichment, breach of fiduciary duty, and conspiracy
could be resolved by applying well-developed “neutral
principles” of law and therefore did not run afoul of the
First Amendment. Plaintiffs also noted that Defendant
BCIC is a secular, non-profit corporation, like the nonprofit corporation that was not shielded by the First
Amendment in Family Federation.
On January 16, 2016, the Beulah Defendants filed
their Brief in opposition to Plaintiffs’ request to
reinstate their claims against the Beulah Defendants.
The Beulah Defendants argued that Family Federation
was distinguishable from this case because the church
in that case was a plaintiff, not a defendant, and
because the defendant in that case was a non-profit
corporation that had broken all ties with the church. In
addition, the Beulah Defendants argued that the
defendants in this case are either leaders of the church
or an entity that acts on the church’s behalf, and
therefore are protected by the First Amendment.
Finally, the Beulah Defendants renewed the res
judicata and standing arguments that they raised in
their original Motion to Dismiss, which this Court did
not address when granting their Motion to Dismiss
because it relied on the First Amendment as the basis
for dismissal.

App. 31
ANALYSIS
A. First Amendment
In order to properly evaluate Plaintiffs’ request, it
is necessary to briefly review this Court’s Order
dismissing Plaintiffs’ claims against the Beulah
Defendants and the Court of Appeals’ decision in
Family Federation. In this Court’s Order dismissing
Plaintiffs’ claims on First Amendment grounds, the
Court noted that some of Plaintiffs’ claims appeared to
directly implicate the Church’s choice of its religious
representatives, a decision that, under the First
Amendment, is properly left to the Church and not the
courts. Thus, this Court determined that Plaintiffs’
request that the Court declare the existing Church
Constitution as null and void was a request that would
entangle this Court in ecclesiastical matters that were
beyond the authority of the Court.
The Court also found that Plaintiffs’ allegations
concerning the Beulah Defendants’ alleged financial
misdeeds were beyond the jurisdiction of the Court,
including Plaintiffs’ allegations that Turner used the
Church credit card for meals, fuel for his personal car,
dry cleaning, vacations, personal lawn care and cell
phone bills, and had the Church pay for his wife’s
education and his son’s tuition, as well as his own
personal tax liabilities. This Court found that Plaintiffs
had not sufficiently alleged that the Beulah Defendants
violated financial principles that were universally and
indisputably adopted by every church or that they
violated financial principles that the Church, in fact,
had adopted, and therefore found that the First
Amendment precluded these claims.

App. 32
In Family Federation, the Court of Appeals reversed
the trial court’s grant of a motion to dismiss a
complaint that contained allegations that were very
similar to the allegations in this case. The plaintiffs in
Family Federation alleged that the defendants had
improperly attempted to take control of Unification
Church International (“UCI”), a non-profit corporation
established under the auspices of Reverend Sung
Myung Moon, the founder of the Unification Church.
Family Federation, slip op. at 2. More specifically, the
plaintiffs alleged that the defendants improperly seized
control of UCI and its assets, and improperly diverted
these assets to Preston Moon, one of the defendants,
through such methods as causing UCI to lend
$2,000,000 to an entity owned by Mr. Moon and also by
causing UCI to enter into a “consulting agreement”
with Mr. Moon under which UCI agreed to pay Mr.
Moon $120,000 per month, even though this consulting
agreement served no legitimate business purpose. Id.
at 10-11. The plaintiffs filed a complaint alleging
breach of trust, breach of fiduciary duty, breach of
contract and unjust enrichment. Id. at 11.
The trial court dismissed the complaint on First
Amendment grounds, but the Court of Appeals
reversed, holding that the plaintiffs’ allegations
involving breach of trust invoked “an ancient and welldeveloped legal area with deep roots in Anglo-American
law,” that the breach of contract and unjust enrichment
allegations were the type of allegations “encountered by
first-year law students,” and that the breach of
fiduciary duty allegations relied “upon doctrines basic
to our legal system.” Id. at 29-30. Thus, the Court of
Appeals found that the plaintiffs’ allegations appeared

App. 33
to be susceptible to resolution by “neutral principles of
law” and not by any “forbidden inquiry into matters
barred by the First Amendment.” Id. at 30. The Court
of Appeals also noted that the suit was not “directly
against a church, synagogue, or mosque or their
immediate leadership,” Id. at 30-31, and instead was
filed against a nonprofit corporation and that the
individual defendants appeared to be operating in a
secular capacity. Id. at 31. However, although the
status of the defendants was identified as a factor in
the Court’s analysis, it does not appear to have been
the determinative factor; rather, the Court of Appeals
focused on the nature of the claims asserted by the
plaintiffs and noted that these issues could “well be
resolvable without infringement into areas precluded
. . . by the First Amendment.” Id.
Finally, the Court of Appeals rejected the argument
that the corporate documents at issue must clearly
establish that the case can be decided in a manner that
is “distinct and separate from matters of church
doctrine or polity,” id. at 32; rather, the Court of
Appeals noted that application of neutral principles of
law need not depend on documentary evidence alone,
and instead could be based on familiar legal principles
“from the common and statutory law of property,
contracts, corporations or voluntary associations.” Id.
at 33.
Applying the Court of Appeals’ analysis in Family
Federation to the facts of this case, the Court agrees
with Plaintiffs that their claims survive dismissal on
First Amendment grounds. Indeed, Plaintiffs’ claims
are strikingly similar to the claims raised by the

App. 34
plaintiffs in Family Federation. For example, like the
plaintiffs in Family Federation, Plaintiffs in this case
have alleged that Turner and Moore breached their
fiduciary duties to the Church and the Plaintiffs when
they diverted Church funds and property for Turner’s
personal use. As the Court of Appeals noted in Family
Federation, these types of actions are not shielded by
the First Amendment because they can be resolved by
applying neutral principles of law that are “basic to our
legal system.” Id. at 30.
Likewise, there is no First Amendment bar, at this
stage in the proceedings, to Plaintiffs’ allegations that
Turner was unjustly enriched when he and Moore
diverted Church assets for Turner’s personal use; that
Turner and Moore converted Church assets for
Turner’s personal use; and that the Beulah Defendants
conspired to breach fiduciary duties, convert Church
funds and unjustly enrich Turner through these
actions. Rather, as the Court of Appeals noted in
Family Federation, these types of actions can be
evaluated through neutral principles of law that are
“encountered by first-year law students.” Id.
In addition, there does not appear to be a First
Amendment bar, at this stage of the proceedings, to
Plaintiffs’ allegations that the Beulah Defendants have
improperly taken administrative and decision-making
authority away from Church leadership bodies and the
congregation and arrogated that authority to
Defendant Turner. Instead, as the Court of Appeals
noted when discussing the plaintiffs’ similar
allegations in Family Federation, these breach of trust

App. 35
allegations “invoke an ancient and well-developed legal
area with deep roots in Anglo- American law.” Id. at 29.
Furthermore, although this Court previously found
that the Beulah Defendants’ actions were shielded by
the First Amendment because they did not violate
principles that were universally and indisputably
adopted by every church or that had been adopted by
the Beulah Church itself, the Court of Appeals in
Family Federation found this type of analysis to be
inadequate. To the contrary, application of neutral
principles of law need not depend on documentary
evidence alone, and instead can be based on familiar
legal principles “from the common and statutory law of
property, contracts, corporations or voluntary
associations.” Id. at 33.
Finally, the Court rejects the Beulah Defendants’
argument that Family Federation should not alter this
Court’s analysis because Defendants Turner and Moore
are Church leaders and Defendant BCIC is an
extension of the Church, while the defendants in
Family Federation had broken away from the Church
to establish a secularized non-profit corporation.
Although the Court acknowledges that this factor
supports the Beulah Defendants’ position, the Court
does not believe it alters the ultimate result. Rather,
the focus of the Court of Appeals’ analysis in Family
Federation was on the nature of the plaintiffs’
allegations, not the nature of the defendants’ non-profit
or secular status. Indeed, the Court of Appeals devoted
only four sentences to the nature of the defendants’
status, id. at 30-31, and devoted more than ten pages

App. 36
to the nature of the plaintiffs’ claims. Id. at 29-30, 3140.
In sum, the Court believes that it erred when it
dismissed, on First Amendment grounds, Plaintiffs’
allegations against the Beulah Defendants. Therefore,
the Court will vacate that portion of its September 4,
2015 and November 19, 2015 Orders that ordered
dismissal of these claims on First Amendment grounds.
B. Standing
As noted above, the Beulah Defendants also have
renewed their requests that the Complaint be
dismissed on standing and res judicata grounds. This
Court has already rejected the Bank Defendants’
identical standing argument, and the Court rejects the
Beulah Defendants’ standing argument for the reasons
that are set forth in its December 22, 2015 Omnibus
Order denying the Bank Defendants’ standing
argument. See Order at 9.
C. Res Judicata
Res judicata “precludes relitigation in a subsequent
proceeding of all issues arising out of the same cause of
action between the same parties or their privies . . . .”
Harnett v. Washington Harbour Condominium Unit
Owners’ Ass’n, 54 A.3d 1165, 1173 (D.C. 2012); Patton
v. Klein, 746 A.2d 866, 869 (D.C. 1999) (“Under the
doctrine of res judicata, a final judgment on the merits
of a claim bars relitigation of the same claim . . .”). In
determining whether two cases are based on the same
“cause of action,” the courts have considered “the
nature of the two actions and the facts sought to be

App. 37
proved in each one.” Shin v. Portals Confederation
Corp., 728 A.2d 615, 619 (D.C. 1999). Furthermore, the
doctrine of res judicata is not limited to causes of action
between the same parties, but also includes “privies” of
those parties; a party is considered a “privy” if he or
she is “so identified in interest with a party to the
former litigation that he or she represents precisely the
same legal right in respect to the subject matter of the
case.” Modiri v. 1342 Restaurant Group, Inc., 904 A.2d
391, 396 (D.C. 2006). However, the doctrine of res
judicata only applies if there has been a final judgment
on the merits in the first proceeding, and does not
apply when the first case has not been resolved on the
merits. See Shin v. Portals Confederation Corp., 728
A.2d 615, 618 (D.C. 1999) (“the crucial element of res
judicata is a final judgment on the merits”) (emphasis
added); Patton v. Klein, 746 A.2d 866, 869 (D.C. 1999)
(“Under the doctrine of res judicata, a final judgment
on the merits of a claim bars relitigation of the same
claim . . .”) (emphasis added).
In this case, res judicata does not bar Plaintiffs’
claims against Defendants BCIC and Moore because no
court has issued a final judgment on the merits of the
Plaintiffs’ claims against these defendants. Rather, in
Wigfall v. Turner, 2014 CA 1577, Judge Cordero
dismissed the Complaint against BCIC, without
prejudice, based on the Plaintiffs’ failure to file timely
proof of service, a dismissal that was not final and did
not address the merits of the claims in any way. Such
a dismissal does not have res judicata effect. See, e.g.,
Stone v. McConkey, 761 A.2d 276, 277 (D.C. 2000) (“If
the dismissal was without prejudice, that is an
indication that the judgment was not [final or] on the

App. 38
merits, and thus does not have a res judicata effect.”);
Shin v. Portals Confederation Corp., 728 A.2d 615, 618
(D.C. 1999) (“it is beyond dispute that a dismissal
without prejudice does not determine the merits”).
Likewise, in Wigfall v. Turner, 2014 CA 3637, the
Complaint against Moore was dismissed pursuant to a
settlement agreement between the parties, an
agreement that did not require the Court to resolve the
merits of Plaintiff’s claims against Moore. This
voluntary dismissal did not have res judicata effect.
See, e.g., Shin, 728 A.2d at 618 (plaintiff’s voluntary
dismissal of counterclaim did not bar later claim
because “it was not a final adjudication” of first claim).
Thus, because no court has entered a final judgment on
the merits of Plaintiffs’ claims against either BCIC or
Moore, the doctrine of res judicata does not bar
consideration of their claims in this case.
The same reasoning does not apply to Plaintiffs’
claims against Defendant Turner. To the contrary, in
Wigfall v. Turner, 2014 CA 1577, Judge Cordero did
address the merits of Plaintiffs’ claims against Turner
when she granted Turner’s motion to dismiss the
Complaint against him for failure to state a claim upon
which relief could be granted. Furthermore, although
only two of the plaintiffs in this case were plaintiffs in
the case before Judge Cordero, all of the plaintiffs in
this case are properly considered “privies” of the
plaintiffs in the case before Judge Cordero. Indeed, all
of the plaintiffs in both cases are members of the
Church, who are seeking the same or similar relief
against Turner. Moreover, many of the allegations in
the Complaint in the case before Judge Cordero mirror

App. 39
the allegations in the current case, including the
allegations that Turner engaged in unauthorized
financial transactions for which the Church was used
as collateral, and also made multiple real estate
purchases without the approval of the Church’s Board
of Directors. Thus, because Judge Cordero entered a
final judgment on the merits of the first case against
Turner, and because Plaintiffs in this case are properly
considered “privies” of the plaintiffs in the case before
Judge Cordero, the Plaintiffs’ Complaint against
Turner must be dismissed on res judicata grounds.
CONCLUSION
In sum, the Court agrees with Plaintiffs that their
claims against the Beulah Defendants are not barred
by the First Amendment, and therefore vacates the
portion of its September 4, 2015 and November 19,
2015 Orders dismissing those claims on First
Amendment grounds. The Court also rejects the Beulah
Defendants’ standing argument, and rejects their res
judicata argument with respect to Defendants BCIC
and Moore. However, the Court agrees that the
Complaint against Defendant Turner must be
dismissed on res judicata grounds.
Accordingly, it is this 16th day of February, 2016
hereby
ORDERED that Plaintiffs’ Complaint against
Defendants BCIC and Moore is REINSTATED; and it
is further
ORDERED that Plaintiffs’ Complaint against
Defendant Moore REMAINS DISMISSED.

App. 40
/s/Robert Okun
Judge Robert Okun
(Signed in Chambers)
Copy via eService to:
Seth A. Rosenthal
Calvin R. Nelson
Counsel for Plaintiffs
Joseph G. Cosby
Counsel for Defendants Turner, Moore and Beulah
Community Improvement Corp.
D. Margeaux Thomas
Counsel for Defendant The Columbia Bank
David S. Musgrave
Counsel for Intervenor-Defendant SMS Financial
XXVIII, L.L.C.

App. 41

APPENDIX E
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
Case No. 2015 CA 001406 B
Judge Robert Okun
Calendar 10
[Filed November 19, 2015]
___________________________________
ALVIN HINES et al.,
)
)
Plaintiffs,
)
)
v.
)
)
DR. MARCUS TURNER, SR., et al., )
)
Defendants.
)
___________________________________ )
ORDER
The following motion is before the Court: Plaintiffs’
Motion for Reconsideration or, in the Alternative,
Motion for Leave to Amend (“Motion for
Reconsideration”), filed on September 21, 2015. The
Beulah Defendants’ filed their Opposition on October
13, 2015, and Plaintiffs’ filed their Reply on October 20,
2015. Upon consideration of the Motion, the
Opposition, and the Reply, and the entire record of this

App. 42
case, Plaintiffs’ Motion for Reconsideration is denied,
for the reasons set forth below.1
RELEVANT PROCEDURAL HISTORY
On September 4, 2015, this Court issued an
Omnibus Order that granted the Beulah Defendants’
Motion to Dismiss and denied their Motion to Stay as
moot. The Court granted the Motion to Dismiss after
finding that the allegations in the First Amended
Complaint were insufficient to confer subject matter
jurisdiction on the Court because the First Amendment
precluded this Court’s consideration of Plaintiffs’
claims.
On September 21, 2015, Plaintiffs filed their Motion
for Reconsideration pursuant to Super. Ct. Civ. R.
59(e), arguing that this Court erred in granting the
Beulah Defendants’ Motion to Dismiss, and, in the
alternative, seeking leave to file their Second Amended
Complaint, pursuant to Super. Ct. Civ. R. 15(a). In
support of their alternative request for leave to file
their Second Amended Complaint, the Plaintiffs added
four new paragraphs to their proposed Second
Amended Complaint, in which the Plaintiffs allege that
the common law provided “neutral legal principles that
are universally and indisputably applicable to churches
and church leaders, including Defendant Turner and
Defendant Moore.” See Second Amended Compl. at

1

Plaintiffs also have filed a Motion for Clarification and a Motion
for Reconsideration of this Court’s October 1, 2015 Omnibus Order
granting the motions to dismiss filed by The Columbia Bank and
SMS Financial XXVIII, L.L.C.. The Court will address those
motions in a separate order.

App. 43
¶¶ 99, 109, 113 and 120. The Plaintiffs also added the
phrase “without authorization” and references to the
common law to certain paragraphs in the Second
Amended Complaint and removed a request to have the
Court declare the Beulah Church’s by-laws to be null
and void. Other than those proposed changes, the
Second Amended Complaint lists the same causes of
action against the same defendants, based on the same
factual assertions and the same legal theories of
liability.
On October 13, 2015, the Beulah Defendants filed
their Opposition, arguing that the Plaintiffs had not
established that they were entitled to reconsideration
under Super. Ct. Civ. R. 59(e), and that they should not
be allowed to file a Second Amended Complaint
because the proposed amended complaint would have
to be dismissed on the same grounds as the First
Amended Complaint. On October 20, 2015, Plaintiffs
filed their Reply.
ANALYSIS
A. Motion for Reconsideration
A trial court may grant a Rule 59(e) motion only to
correct “manifest errors of law or fact.” In re Estate of
Derricotte, 885 A.2d 320, 324 (D.C. 2005); Dist. No. 1 –
Pac. Coast Dist., Marine Engineers’ Ben. Ass’n v.
Travelers Cas. & Sur. Co., 782 A.2d 269, 278-79 (D.C.
2001). In this case, the Plaintiffs have raised a number
of non-frivolous challenges to the correctness of this
Court’s September 4, 2015 Omnibus Order.
Nonetheless, they have not identified any D.C. Court of
Appeals’ precedent that directly forecloses or

App. 44
undermines the validity of this Court’s Order, and have
otherwise failed to show that this Court’s Order
contained “manifest errors of law or fact” that may be
corrected pursuant to Rule 59(e). Consequently,
Plaintiff’s Motion for Reconsideration will be denied.
B. Motion for Leave to Amend
Pursuant to Super. Ct. Civ. R. 15(a), a party may
amend a pleading after a responsive pleading has been
filed only if the party obtains the court’s permission or
the other party’s written consent. Rule 15(a) also
specifies that leave to amend “shall be freely given
when justice so requires.”
In interpreting this rule, the Court of Appeals has
noted that the Rule should be applied with a “spirit of
liberalism,” Sherman v. Adoption Center of
Washington, Inc., 741 A.2d 1031, 1037 (D.C. 1999), and
that the policy favoring resolution of disputes on the
merits “creates a ‘virtual presumption’ that leave to
amend should be granted unless there are sound
reasons for denying it.” Pannell v. District of Columbia,
829 A.2d 474, 477 (D.C. 2003). Nonetheless, the abovecited “spirit of liberalism” does not mean that
amendments should be granted automatically; “a
refusal to allow an amendment is to be upheld if
predicated on some valid ground.” Sherman, 741 A.2d
at 1038 (quoting Johnson v. Fairfax Village Condo. IV,
641 A.2d 495, 501 (D.C. 1994)). In determining whether
the interests of justice require the granting of a motion
to amend, the trial court should consider the following
factors: “(1) the number of requests to amend; (2) the
length of time that the case has been pending; (3) the
presence of bad faith or dilatory reasons for the

App. 45
request; (4) the merit of the proffered amended
pleading; and (5) any prejudice to the non-moving
party.” Pannell, 829 A.2d at 477.
In this case, many of the factors favor Plaintiffs’
request for leave to amend. This is only their second
request to amend the complaint, the case has been
pending for less than a year, the Court does not find
that the request has been made in bad faith or for
dilatory reasons, and the Court likewise does not find
that the Defendants would be prejudiced by the grant
of Plaintiffs’ Motion at this stage in the proceedings.
Nonetheless, Plaintiffs’ request is doomed by the lack
of merit of their proffered amended pleading. Indeed,
although the Plaintiffs have made minor revisions to
the proposed Second Amended Complaint, the proposed
amended pleading still is based on the same legal
theories and the same factual circumstances, and
alleges the same causes of action against the same
defendants, as the First Amended Complaint.
Therefore, the Court believes that the Second Amended
Complaint would be dismissed on the same First
Amendment grounds as the First Amended Complaint.
In sum, because the First Amendment would bar
consideration of Plaintiff’s proposed Second Amended
Complaint, the “interests of justice” do not require that
this Court grant Plaintiff’s request to file their
proposed amended pleading. See Sherman, 741 A.2d at
1038 (“The court appropriately included in its calculus
the apparent lack of merit in the amended complaint”
when denying plaintiff’s motion to amend).
Accordingly, Plaintiffs’ Motion for Leave to Amend will
be denied.

App. 46
Accordingly, it is this 19th day of November, 2015,
hereby
ORDERED that Plaintiffs’ Motion for
Reconsideration or, in the Alternative, Motion for
Leave to Amend, is DENIED.
/s/Robert Okun
Judge Robert Okun
(Signed in Chambers)
Copy via eService to:
Seth A. Rosenthal
Calvin R. Nelson
Counsel for Plaintiffs
Joseph G. Cosby
Counsel for Defendants Turner, Moore and Beulah
Community Improvement Corp.
D. Margeaux Thomas
Counsel for Defendant The Columbia Bank
David S. Musgrave
Counsel for Intervenor-Defendant SMS Financial
XXVIII, L.L.C.

App. 47

APPENDIX F
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
2015 CA 001406 B
Judge Robert Okun
Calendar 10
[Filed September 4, 2015]
___________________________________
ALVIN HINES et al.,
)
)
Plaintiffs,
)
)
v.
)
)
DR. MARCUS TURNER, SR., et al., )
)
Defendants.
)
___________________________________ )
OMNIBUS ORDER
The following two motions are before the Court:
1) the Motion to Dismiss the Complaint (“Motion to
Dismiss”) filed by Defendants Dr. Marcus Turner, Sr.,
Russell E. Moore, and the Beulah Community
Improvement Corporation (collectively referred to as
the “Beulah Defendants”), Plaintiffs’ Opposition and
the Beulah Defendants’ Reply; and 2) the Beulah
Defendants’ Renewed Motion for Stay (“Motion for

App. 48
Stay”), and Plaintiff’s Opposition. Upon consideration
of the Motions, the Oppositions, and the entire record
of the case, the Court grants the Beulah Defendants’
Motion to Dismiss, and denies the Beulah Defendants’
Motion to Stay as moot, for the reasons set forth
below.1
Procedural and Factual Background
This case is just the latest chapter in a long-running
dispute between certain members of the Beulah Baptist
Church (“the Church”), on the one side, and Dr. Marcus
Turner, Sr. (“Turner”), the pastor of the Church, and
certain other entities and individuals, on the other
side. The Court will set forth an abbreviated overview
of the three cases filed in this dispute before the filing
of the case at hand, and will then discuss the instant
case.
1. Wigfall v. Turner, 2014 CA 001577 B
(“Wigfall I”)
On March 14, 2014, six members of the Church,
including two of the Plaintiffs in this case, filed a
Complaint against Turner, the Beulah Community
Improvement Corporation (“BCIC”), The Columbia
Bank (“Columbia Bank”), Community Title Services,
and Gene Gallagher for fraud, unjust enrichment, civil
conspiracy, and gross negligence, seeking damages,
declaratory relief and a preliminary injunction. Many
of the allegations in the Complaint in Wigfall I mirror

1

The Court will address the Motions to Dismiss filed by
Defendants The Columbia Bank and SMS Financial XXVIII,
L.L.C., in a separate Order.

App. 49
the allegations in the current case, including
allegations that Turner engaged in unauthorized
financial transactions, such as a $3.2 million loan in
July 2008, for which the Church was used as collateral,
as well as multiple real estate purchases made without
the approval of the Church’s Board of Directors. On
June 6, 2014, Judge Cordero dismissed BCIC,
Columbia Bank and Community Title Services from the
case because the Plaintiffs had not timely filed proof of
service with respect to these defendants.2 On June 26,
2014, Judge Cordero dismissed the Complaint against
Turner for failure to sufficiently state a claim against
him.
2. Wigfall v. Turner, 2014 CA 003637 (“Wigfall
II”)
On June 13, 2014, after Judge Cordero had
dismissed the Complaint against BCIC, Columbia
Bank and Community Title Services, but before she
had dismissed the Complaint against Turner, four
members of the Church, including two of the Plaintiffs
in this case, filed a second Complaint against Turner,
BCIC, Columbia Bank, Community Title Services, and
Russell E. Moore (“Moore”), again alleging fraud,
unjust enrichment, civil conspiracy and gross
negligence, based largely on the same allegations
raised in Wigfall I. On October 1, 2014, after Judge
Holeman had dismissed the unjust enrichment and
civil conspiracy claims against Columbia Bank, two
new Church members filed an Amended Complaint,
this time against Turner, BCIC, Columbia Bank,
2

Plaintiffs had previously dismissed Gene Gallagher from the case.

App. 50
Community Title Services, Moore, and three other
BCIC Board members. In this latest Complaint, the
Plaintiffs alleged conversion, unjust enrichment, civil
conspiracy, breach of fiduciary duty, and gross
negligence, based largely on the same factual
allegations raised in Wigfall I and the initial Complaint
in Wigfall II. Judge Holeman subsequently dismissed
the unjust enrichment and civil conspiracy claims
against Columbia Bank and Community Title Services.
On June 25, 2015, the Plaintiffs and the Beulah
Defendants filed a Joint Motion to Dismiss the case
against the Beulah Defendants, pursuant to a
settlement agreement in which the Beulah Defendants
agreed to dismiss their claims against the Plaintiffs
and others who were named as defendants in Turner v.
Wigfall, 2014 CA 5656, as described below.3
3. Turner v. Wigfall, 2014 CA 5656 (“Turner”)
On September 9, 2014, Turner, BCIC and the
Church (“the Turner Plaintiffs”) turned the tables and
filed a Complaint against the Plaintiffs and their
attorneys in Wigfall I. The Turner Plaintiffs alleged
that the Defendants committed abuse of process,
invasion of privacy, conversion and fraud in connection

3

At the June 12, 2015, Initial Scheduling Conference in this case,
the Court requested that the parties provide the Court with their
positions on the issue of whether this case should be consolidated
with the case pending before Judge Holeman. All of the parties
indicated that they were either unconditionally or conditionally
opposed to consolidating the cases. Given the parties’ unified
position on this case, and given the fact that Plaintiffs have
dismissed the Beulah Defendants in the case before Judge
Holeman, there now is no basis for consolidating the cases.

App. 51
with their service of subpoenas to obtain financial
records after Wigfall I had been dismissed and before
Wigfall II had been filed. On April 23, 2015, this Court
granted the church member Defendants’ Motions to
Dismiss with respect to all claims filed against them,
and granted the attorney Defendants’ Motion to
Dismiss with respect to the conversion claim, but
denied their Motion to Dismiss with respect to the
other claims. On June 19, 2014, pursuant to the
settlement agreement noted above, the Plaintiffs in
Turner filed a Stipulation of Dismissal against all the
Defendants in that case.
4. The Current Case
Finally, we get to the case pending before this
Court. On March 3, 2015, eighteen members of the
Church filed a Complaint against Turner, Moore,
BCIC, and Columbia Bank for breach of fiduciary duty,
conversion, unjust enrichment, civil conspiracy, and
negligence.4 The Plaintiffs sought an Order that:
1) declared as null and void the July 2008 Deed of
Trust, Security Agreement and Assignment of Leases
and Rents between BCIC and Columbia Bank, and a
July 2008 Guaranty Agreement between the Church
and Columbia Bank, and discharges the Church from
any obligations it has as a guarantor under those
Agreements; 2) enjoined Turner and Moore from
4

On April 28, 2015, SMS Financial XXVIII, L.L.C., filed a Consent
Motion to Intervene as Party Defendant, asserting that it had an
interest in the case because it is a successor to Columbia Bank
under a promissory note and a loan modification agreement
between Columbia Bank and BCIC. The Court granted this
Consent Motion on May 5, 2015.

App. 52
making decisions, taking actions or otherwise
exercising authority regarding Church finances and
property; 3) required a full accounting of the financial
records of the Church, Turner, and Moore; 4) declared
as null and void the existing Church Constitution; and
5) awarded Plaintiffs damages, pre-judgment and postjudgment interest, costs and reasonable attorney fees.
On June 17, 2015, Plaintiffs filed their First Amended
Complaint, which added a count specifically requesting
that this Court issue a declaratory judgment that the
Agreements described above were null and void and do
not bind the Church.
In their First Amended Complaint (hereafter “the
Complaint”), Plaintiffs allege that Turner has been the
pastor of the Church since 1999, and since that time
has taken administrative and decision-making
authority away from Church leadership bodies and the
congregation and arrogated that authority to himself.
(Compl. at ¶ 2.) In the process, Plaintiffs allege, Turner
has taken actions that have compromised the Church’s
financial health, sometimes for his own financial
benefit. (Id. at ¶ 3.) More specifically, the Complaint
alleges that Turner used the Church credit card for
meals, fuel for his personal car, dry cleaning, vacations,
personal lawn care and cell phone bills, and also had
the Church pay for his wife’s education and his son’s
tuition, as well as his own personal tax liabilities. (Id.
at ¶ 38.)
The Complaint further alleges that Turner used
Church property as collateral for a $3,230,000 loan in
July 2008, in which the Church was the guarantor of
the loan, BCIC was the borrower, and The Columbia

App. 53
Bank was the lender. (Id. at ¶ 51.) According to the
Complaint, Turner consummated this transaction
without the knowledge or approval of the Church’s
Trustee Board, Joint Board, or the Church
membership.5 (Id. at ¶ 52.) The Complaint further
alleges that, as part of this transaction, Jacquelyne
Giles, at Turner’s direction, executed two special
warranty deeds conveying Church property to BCIC
and to another entity that appears to be affiliated with
the Church, without authorization from the Trustee
Board, the Joint Board, or the Church membership. (Id.
at ¶¶ 55-57.) BCIC subsequently defaulted on the July
2008 loan and then entered into a series of forbearance
agreements with the lender – first with Columbia Bank
and later with SMS Financial. (Id. at ¶ 89.) None of the
plaintiffs knew of these July 2008 transactions until
January 2014, when they saw a notice in The
Washington Post stating that the Church property was
going to be auctioned at a foreclosure sale. (Id. at
¶¶ 59, 89-90.) To prevent this foreclosure, BCIC and
Turner sold off other BCIC properties, including the
two properties covered by the special warranty deeds
executed in July 2008. (Id. at ¶ 91.)
The Complaint also alleges that Turner, aided by
Defendant Moore, who was serving as Chair of the
Trustee Board, entered into a $900,000 loan in 2011,

5

According to the Complaint, the Church has three official boards:
the Trustee Board, the Deacon Board, and the Deaconess Board.
These three boards were required by the Church’s Constitution to
meet once a month as a Joint Board to act on matters approved by
the Church and to prepare recommendations to the Church
membership for future action. (Id. at ¶¶ 32-33.)

App. 54
again encumbering Church property, and that much of
the money was used for purposes unrelated to the
mission of the Church. (Id. at ¶ 73.) In 2014, after
Turner refused to pay the contractor for the full
amount of the work secured by the loan, the contractor
sued Turner, the Church and BCIC, and the Church
was forced to incur legal fees and expend funds to
settle the lawsuit. (Id. at ¶ 96.)
Finally, the Complaint alleges that Turner, aided by
Moore, amended the Church’s Constitution in 2012 to
eliminate the Trustee Board, the Deacon and
Deaconess Boards, and the Joint Board, and replaced
them with advisory committees whose members are
appointed by Turner and who serve at his pleasure. (Id.
at ¶ 83.) All decision-making authority under the 2012
Constitution resides in a Council of Elders, which is
composed of Turner, Moore, and Frank Sutton. (Id. at
¶¶ 84-85.) According to the Complaint, the Council of
Elders has acted with a “complete lack of transparency
and accountability,” refusing to share the Church’s
financial information with membership. (Id. at ¶¶ 8687.) Furthermore, the Complaint alleges that the
Church now struggles to cover routine operating
expenses, and no longer provides services that it used
to provide, as a result of Turner’s “financial
mismanagement and irresponsible conduct.” (Id. at
¶ 97.)
The Complaint asserts four substantive causes of
action against the Beulah Defendants. In the first
count, Plaintiffs allege that Turner, aided and abetted
by Moore, breached their fiduciary duties to the Church
and the Plaintiffs through the actions set forth above.

App. 55
In the second count, Plaintiffs allege that Turner, aided
and abetted by Moore, converted funds belonging to the
Church for Turner’s personal benefit. In the third
count, Plaintiffs allege that Turner, aided and abetted
by Moore, was unjustly enriched by the above-described
practices. In the fourth count, Plaintiffs allege that
Turner, Moore and BCIC conspired to breach Turner
and Moore’s fiduciary duties to the Church and
Plaintiffs, to convert Church funds to Turner’s control,
and to unjustly enrich Turner.6
On May 15, 2015, the Beulah Defendants filed their
Motion to Dismiss, asserting that the Court lacked
subject matter jurisdiction over the claims in the
Complaint under the First Amendment, and also
arguing that the claims were barred by the doctrine of
res judicata and that the Plaintiffs lacked standing to
assert their claims either on their own behalf or on
behalf of the Church.
On June 4, 2015, Plaintiffs filed their Opposition,
arguing that the First Amendment is not applicable to
the allegations raised in the Complaint because these
allegations can be resolved under neutral legal
principles; that the doctrine of res judicata is not
applicable because the Court in Wigfall I did not render
a decision on the merits and none of the Plaintiffs in
this case, except two, is the same or in privity with the
Wigfall I plaintiffs; and Plaintiffs have standing to

6

Count Five alleges negligence solely against The Columbia Bank,
and Counts Six and Seven seek an accounting and declaratory
judgment with respect to the financial mismanagement alleged in
the Complaint.

App. 56
assert their claims because they are bona fide members
of the Church.
On June 11, 2015, the Beulah Defendants filed a
Motion to Stay the case, requesting that the case be
stayed pending a ruling on their Motion to Dismiss. On
June 17, 2015, Plaintiffs filed their Opposition, and on
June 24, 2015, the Beulah Defendants filed their Reply.
On June 12, 2015, this Court conducted the Initial
Scheduling Conference in this case and orally granted
Plaintiffs’ request to file an Amended Complaint by
June 17, 2015. On June 17, 2015, Plaintiffs filed their
First Amended Complaint.
On July 1, 2015, this Court issued an Omnibus
Order denying the Beulah Defendants’ Motion to
Dismiss as moot because it was directed to the initial
Complaint, which had been superseded by the First
Amended Complaint. The Court also denied the Beulah
Defendants’ Motion to Stay as moot because the Court
stayed discovery in the case at the Initial Scheduling
Conference until July 31, 2015, which was the date for
a further Scheduling Conference.7
On July 6, 2015, the Beulah Defendants filed their
Motion to Dismiss Plaintiffs’ Amended Complaint,
largely reiterating the arguments made in their initial
Motion to Dismiss. On July 21, 2015, Plaintiffs filed

7

The Scheduling Conference subsequently was continued until
October 2, 2015. The Court also denied as moot the Motions to
Dismiss filed by Defendant Columbia Bank and Defendant SMS
Financial XXVIII, L.L.C., and denied Columbia Bank’s Motion to
Stay.

App. 57
their Opposition and on July 28, 2015, the Beulah
Defendants filed their Reply.
Finally, on July 10, 2015, the Beulah Defendants
renewed their previously filed Motion to Stay and the
Plaintiffs renewed their Opposition to the Motion to
Stay on the same day.
Analysis
I. Motion to Dismiss
A. Applicable Legal Standards
1. Motion to Dismiss for Lack of Subject
Matter Jurisdiction
A motion to dismiss for lack of subject matter
jurisdiction under Super. Ct. Civ. R. 12(b)(1) may be
made by “facial” attack or “factual” attack. Second
Episcopal Dist. African Methodist Episcopal Church v.
Prioleau, 49 A.3d 812, 815 (D.C. 2012). “In a ‘facial’
attack, the court determines jurisdiction by looking
only at the face of the complaint and taking as true the
allegations in the complaint.” Id. (citing Heard v.
Johnson, 810 A.2d 871, 877 (D.C. 2002)). In a “factual”
attack, however, “the court considers matters outside
the face of the complaint and does not presume that the
allegations in the complaint are true.” Id. (citing 810
A.2d at 878); see also Pardue v. Ctr. City Consortium
Schs. of the Archdiocese of Wash., Inc., 875 A.2d 669,
675 (D.C. 2005). Furthermore, in deciding a Rule
12(b)(1) factual attack, the court may review evidence
outside the complaint without converting the motion
into a motion for summary judgment. Second Episcopal
Dist., 49 A.3d at 815, n.3 (quoting Lipscombe v.

App. 58
Crudup, 888 A.2d 1171, 1173 n.2 (D.C. 2005)). Finally,
when a defendant files a motion to dismiss a complaint
on First Amendment grounds, the motion is properly
analyzed as a challenge to the subject matter
jurisdiction of the Court under Rule 12(b)(1). See, e.g.,
Pardue, 875 A.2d at 674.
2. First Amendment
The Establishment Clause and Free Exercise
Clause of the First Amendment of the U.S.
Constitution “severely circumscribe the role that civil
courts may play in the resolution of disputes involving
religious organizations.” Second Episcopal Dist., 49
A.3d at 815 (quoting Meshel v. Ohev Sholom Talmud
Torah, 869 A.2d 343, 353 (D.C. 2005)). This does not
mean, however, “that churches are above the law or
that there can never be a civil court review of a church
action.” Heard, 810 A.2d at 879. Rather, there are
“several areas in which courts continue to have
jurisdiction over church actions,” id. at 880, including
disputes over church property where courts can apply
“neutral principles of law.” Samuel v. Lakew, No. 13CV-1472, slip op. at 8 (D.C. June 11, 2015) (quoting
Jones v. Wolf, 443 U.S. 595, 604 (1979)).
However, civil courts “must be careful not to violate
the First Amendment by agreeing to resolve a
controversy which, at its heart, concerns religious
doctrine and practice,” id. (quoting Bible Way Church
of Our Lord Jesus Christ of Apostolic Faith of
Washington, D.C. v. Beards, 680 A.2d 419, 427 (D.C.
1996)), and any attempt by the civil courts to limit a
church’s choice of its religious representatives “would
constitute an impermissible burden on the church’s

App. 59
First Amendment rights.” Id. (quoting Pardue, 875
A.2d at 673)). Indeed, “civil courts are bound to accept
the decisions of a religious organization . . . on matters
of discipline, faith, internal organization or
ecclesiastical rule, custom or law.” Bible Way, 680 A.2d
at 427 (quoting Serbian Eastern Orthodox Diocese v.
Milivojevich, 426 U.S. 696, 713 (1976)).
Furthermore, when a complaint challenges a
church’s financial practices, it can withstand First
Amendment scrutiny only if it sufficiently alleges that
the church violated principles that “are so universally
– and indisputably – applicable to every organized
church that they can, indeed must, be taken for
granted without need for church action to adopt them;
or . . . even if they are not automatically applicable to
every church, they are applicable in a particular case
because the church has in fact adopted them.” Id. at
428. In such a circumstance, a court could resolve the
dispute because it “merely would be asked to apply,
without ecclesiastical judgment or intrusion, a
previously prescribed, authoritative, nondiscretionary
– and clear – policy.” Id. Ultimately, the “touchstone for
determining whether civil courts have jurisdiction is
whether the courts may employ ‘neutral principles of
law’ and ensure that their decisions are not premised
on the ‘consideration of doctrinal matters, whether the
ritual and liturgy of worship or the tenets of faith.’”
Second Episcopal Dist., 49 A.3d at 816 (quoting Meshel,
869 A.2d at 354)).
Finally, “because a complaint challenging church
action is not easily cognizable in a civil court, there is
a heightened pleading requirement to assure that the

App. 60
defendants will not be unduly burdened.” Bible Way,
680 A.2d at 429. Thus, “when the First Amendment
casts a shadow over the court’s subject matter
jurisdiction, the plaintiff is obliged to plead unqualified
jurisdictional facts that clearly take the case outside
the jurisdictional bar.” Id. at 430.
B. Application of Legal Standards to this
Case
In this case, Plaintiffs have failed to satisfy the
heightened pleading standard to clearly show that the
allegations in their Complaint are not jurisdictionally
barred by the First Amendment. First, some of their
allegations and requests for relief directly implicate the
Church’s choice of its religious representatives and
would require this Court to consider the Church’s
doctrinal matters in resolving these allegations. For
example, the breach of fiduciary count alleges that
Moore and Turner breached their fiduciary duties to
Plaintiffs by, among other things, forcing the adoption
of a new Constitution to govern Church affairs. (Compl.
at ¶ 106.) This is exactly the type of allegation that
would require this Court to review the Church’s
decision as to the proper structuring of its internal
organization, a decision that, under the First
Amendment, is properly left to the Church and not the
courts. See, e.g., Bible Way, 680 A.2d at 427. Likewise,
Plaintiffs’ request that this Court declare the existing
Church Constitution as null and void is a request that
would entangle this Court in ecclesiastical matters that
are beyond the authority of this Court. Id.
Furthermore, the many allegations in the
Complaint concerning the Beulah Defendants’ alleged

App. 61
financial misdeeds also are beyond the jurisdiction of
this Court. Although Plaintiffs argue that these
allegations can be resolved by using neutral principles
of tort law, Plaintiffs have not sufficiently alleged that
the Beulah Defendants violated financial principles
that are universally and indisputably adopted by every
church or that they violated financial principles that
the Church, in fact, has adopted. To the contrary,
although Plaintiffs allege that Turner used the Church
credit card for a variety of personal expenses and had
the Church pay for a variety of other personal
expenses, these alleged practices are not a violation of
universally adopted church principles. See, e.g., Kelsey
v. Ray, 719 A.2d 1248, *4, *7 (D.C. 1998) (provision of
interest-free loan to pastor for purchase of personal
residence and grant of money for new car did not
violate universally adopted church principles); Bible
Way, 680 A.2d at 424 (provision of funds to wife of
founding pastor did not violate universally adopted
church principles). Likewise, Plaintiffs’ allegation that
the Beulah Defendants consummated financial
transactions without providing sufficient information
to the Church’s membership or leadership is not a
violation of universally adopted church principles. See,
e.g., Kelsey, 719 A.2d at **6-7 (failing to provide church
membership with sufficient information prior to
providing interest-free loan to pastor and money to
purchase car did not violate universally adopted church
principles). Furthermore, Plaintiffs have not identified
a financial standard or principle officially adopted by
the Church that was violated by the Beulah
Defendants’ actions. Thus, Plaintiffs have not
sufficiently pled that the Beulah Defendants’ financial
practices clearly violated neutral principles of law that

App. 62
can be evaluated by this Court without running afoul
of the First Amendment.
Indeed, an examination of the relevant case law
demonstrates that Plaintiffs’ allegations concerning the
Beulah Defendants’ financial practices are insufficient
to confer subject matter jurisdiction on this Court. For
example, in Kelsey, supra, the plaintiffs alleged that
the church’s pastor and Official Board had breached
their fiduciary duties to the church membership by
engaging in financial transactions, such as the
provision of an interest-free loan to the pastor for the
purchase of a $325,000 home and $50,000 for the
purchase of a new car, without providing sufficient
information to the Church membership before these
transactions were approved. 719 A.2d at **4-7. The
complaint, like the Complaint in this case, alleged that
the various Church Boards had become “mere alter
egos of the Pastor,” acting “in the sole interest of the
Pastor and not the Church.” Id. at *6. The plaintiffs,
like the Plaintiffs in this case, sought a declaratory
judgment that the defendants had breached their
fiduciary duties and also sought an accounting of the
Church’s finances by an outside accounting firm. Id. at
*7. Finally, and unlike the Plaintiffs in this case, the
plaintiffs in Kelsey identified various articles in the
Church Constitution and the Church By-Laws that
allegedly proscribed the defendants’ alleged practices.
Id. at ** 11-16. The trial court in Kelsey, with one
exception, denied the defendants’ motion to dismiss the
complaint, saying “that he was ‘confident’ he could
adjudicate the dispute by applying statutory law and
the Church’s Constitution and By-Laws ‘without
becoming involved with any ecclesiastical matters or

App. 63
doctrines.’” Id. at *2. The Court of Appeals reversed the
denial of the motion to dismiss, holding that the
plaintiffs had failed to demonstrate that the church
had “adopted clear, objective accounting and reporting
standards” that were violated by the defendants’
practices. Id. at *15.
Similarly, in Bible Way, supra, the plaintiffs
alleged, among other things, that the church, its pastor
and its board of trustees were negligent and violated a
duty of care to the church members by failing to
monitor funds received from all sources, falling “under
the complete domination” of the pastor, failing to
comply with Social Security provisions and tax laws,
failing to account for funds turned over to the wife of
the founding pastor, failing to account for receipts from
the church’s annual banquet, failing to provide
financial reports to the members, failing to account for
tithes paid by church members, failing to maintain
accurate records, and failing to comply with the
financial and accounting standards set forth in the
“Standards of Responsible Stewardship” and the
“Guidelines and Standards for Audits and Certified
Public Accountants.” 680 A.2d at 424. The trial judge
denied the defendants’ motion to dismiss the negligence
count, concluding that he could resolve that count
“exclusively by reference to objective, well-established
standards of accounting and reporting that would not
entangle the court in matters of religion in
contravention of the First Amendment.” Id. at 425. The
Court of Appeals reversed the denial of the motion to
dismiss the negligence count, holding that the plaintiffs
failed to sufficiently allege that the financial and
accounting standards they cited “universally and

App. 64
indisputably apply to every church organization,” id. at
428 (emphasis in original), or that these standards had,
in fact, been adopted by the Church. Id. at 429. The
Court further stated that “[a] mere reference to the
existence of published accounting standards, without
alleging that they inherently, and thus inevitably,
apply --- or without saying, alternatively, that the
church has formally adopted them – would leave the
complaint too fuzzy for the court to be sure it
constitutionally can rule.” Id.
In this case, the Plaintiffs have failed to sufficiently
allege that the Beulah Defendants’ financial practices
violate standards that universally and indisputably
apply to every church organization. To the contrary,
the Court of Appeals noted that these same practices or
similar practices did not violate universally accepted
church practices in both Kelsey and Bible Way.
Furthermore, Plaintiffs have not identified any
applicable statutes or Church principles or standards
that specifically proscribe the Beulah Defendants’
alleged financial practices. To the contrary, the
Church’s Constitution does not contain any limitations
on the type of financial practices alleged in the
Complaint.8 Thus, the allegations in the Complaint are
8

Article V of the Church Constitution sets forth the
responsibilities of the Trustee Board, which may review and sign
all contracts and legal documents on behalf of the Church and has
the responsibility for the acquisition, maintenance, repair and
replacement of all church property. (See Beulah Defs.’ Mot. to
Dismiss, Ex. A., Church Constitution, Article V, Section 3.) The
Constitution places no limitations on the type of expenditures the
Church may incur and likewise imposes no requirement that the
Church membership approve any such expenditures before they

App. 65
even less sufficient than the allegations made by the
plaintiffs in both Kelsey and Bible Way, each of whom
identified provisions in the Church’s Constitution and
By-Laws, or in general accounting standards, that
allegedly proscribed the defendants’ financial practices,
even though the Court of Appeals deemed these
provisions and standards to be insufficient to confer
subject matter jurisdiction as a matter of law.
In sum, Plaintiffs have failed to clearly show that
the allegations in the Complaint are sufficient to confer
subject matter jurisdiction on this Court. Accordingly,
the Beulah Defendants’ Motion to Dismiss will be
granted.9

are incurred. (Id.) The Court may consider the Church
Constitution in ruling on the Motion to Dismiss, without
converting the Motion to Dismiss to a summary judgment motion,
because the Constitution is referred to in the Complaint and is
central to Plaintiffs’ claims. See, e.g., Chamberlain v. Am. Honda
Fin. Corp., 931 A.2d 1018, 1025 (D.C. 2007) (“Documents that a
defendant attached to a motion to dismiss are considered part of
the pleadings if they are referred to in plaintiff’s complaint and are
central to her claim”). The Court may also consider the Church
Constitution because a court may review evidence outside the
complaint when reviewing a factual attack under Rule 12(b)(1)
without converting the motion into a motion for summary
judgment. Second Episcopal Dist., 49 A.3d at 815, n.3.
9

Because the Court has determined that it does not have subject
matter jurisdiction over the Complaint against the Beulah
Defendants, it need not, and will not, address the Beulah
Defendants’ res judicata and standing arguments.

App. 66
II. Motion to Stay
Because this Court has granted the Beulah
Defendants’ Motion to Dismiss, their Motion to Stay is
now moot. Therefore, the Court will deny the Motion to
Stay as moot.
Accordingly, it is this 4th day of September 2015,
hereby
ORDERED that the Beulah Defendants’ Motion to
Dismiss is GRANTED; it is further
ORDERED that the Beulah Defendants’ Motion to
Stay is DENIED AS MOOT; and it is further
ORDERED that Defendants Dr. Marcus Turner,
Sr., Russell E. Moore, and the Beulah Community
Improvement Corporation are DISMISSED as
Defendants in this case.
/s/Robert Okun
Judge Robert Okun
(Signed in Chambers)
Copy via eService to:
Seth A. Rosenthal
Calvin R. Nelson
Counsel for Plaintiffs
Joseph G. Cosby
Counsel for Defendants Turner, Moore and Beulah
Community Improvement Corp.
D. Margeaux Thomas
Counsel for Defendant The Columbia Bank

App. 67
David S. Musgrave
Counsel for Intervenor-Defendant SMS Financial
XXVIII, L.L.C.

App. 68

APPENDIX G
IN THE SUPERIOR COURT OF
THE DISTRICT OF COLUMBIA
Civil Action No. 2015 CA 001406 B
Judge Robert D. Okun
Next Event: Scheduling Conference, 7/31/15
[Filed June 17, 2015]
___________________________________
ALVA C. HINES
)
1100 Burketon Road
)
Hyattsville, MD 20780
)
)
TRACY D. JONES
)
7946 Suiter Way
)
Landover, MD 20785
)
)
MARCIA V. JONES
)
3807 Keehar Court
)
Springdale, MD 20774
)
)
NORMA HUNTER
)
12507 Woodsong Lane
)
Bowie, MD 20721
)
)
BETTY GIVENS
)
6624 Sisalbed Drive
)
Capitol Heights, MD 20743
)
)
DAISY JOHNSON
)

App. 69
710 Birchleaf Avenue
Capitol Heights, MD 20743
WILLIE M. CROSBY
6808 Seat Pleasant Drive
Capitol Heights, MD 20743
WILLIAM MINOR
6116 Seat Pleasant Drive
Capitol Heights, MD 20743
JAMES R. BROWN
7906 Dellwood Avenue
Glenarden, MD 20706
DELORES C. BROWN
7906 Dellwood Avenue
Glenarden, MD 20706
SAMUEL J. FORREST
4416 Lee Street, N.E.
Washington, D.C. 20019
JOYCE FORREST
4416 Lee Street, N.E.
Washington, D.C. 20019
LYDELL MANN, SR.
316 61st Street, N.E.
Washington, D.C. 20019
JEAN M. GASKINS
1716 Cinnamon Teal Way
Upper Marlboro, MD 20774

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 70
BEATRICE H. SCOTT
6913 Canyon Drive
Capitol Heights, MD 20743
HAZEL E. GREEN
153 Uhland Terrace, N.E.
Washington, D.C. 20002
EDITH D. MINOR
1420 7th Street
Glenarden, MD 20706
WALTER M. WILLIAMS
1109 Farmingdale Avenue
Capitol Heights, MD 20743
Plaintiffs,
v.
DR. MARCUS TURNER, SR.
12424 Alamance Way
Upper Marlboro, MD 20772
in his individual capacity and
in his official capacity as Pastor
and Chief Elder of Beulah
Baptist Church
RUSSELL EUGENE MOORE, JR.
11013 Mission Hills
Mitchellville, MD 20721
in his individual capacity and in
his capacity as an Elder of Beulah
Baptist Church

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 71
BEULAH COMMUNITY
IMPROVEMENT CORPORATION
Marcus Turner, Chairman
5820 Dix Street, N.E.
Washington, D.C. 20019
a District of Columbia non-stock,
non-profit corporation; and

)
)
)
)
)
)
)
)
THE COLUMBIA BANK
)
7168 Columbia Gateway Drive
)
Columbia, MD 21046
)
a subsidiary of Fulton Financial
)
Corporation,
)
)
Defendants; and
)
)
SMS Financial XXVII, L.L.C.
)
6829 North 12th Street
)
Phoenix, AZ 85014
)
an Arizona limited liability
)
corporation,
)
)
Intervenor-Defendant.
)
___________________________________ )
FIRST AMENDED COMPLAINT
Plaintiffs Alva C. Hines, Tracy D. Jones, Marcia V.
Jones, Norma Hunter, Betty Givens, Daisy Johnson,
Willie M. Crosby, Willie Minor, James R. Brown,
Delores C. Brown, Samuel J. Forrest, Joyce Forrest,
Lydell Mann, Sr., Jean M. Gaskins, Beatrice H. Scott,
Hazel E. Green, Edith D. Minor and Walter M.
Williams, who are bona fide members in good standing

App. 72
of Beulah Baptist Church of Deanwood Heights, bring
this Complaint against Defendants Dr. Marcus Turner,
Sr., Russell E. Moore, Jr., the Beulah Community
Improvement Corporation and The Columbia Bank for
breach of fiduciary duty, conversion, unjust
enrichment, civil conspiracy, gross negligence and
accounting, and state, claim and allege as follows:
INTRODUCTION
1. Beulah Baptist Church (“Church”) is a
missionary Baptist Church that has been a pillar of the
Deanwood Heights community since its founding in
1909. The Church is located at 5820 Dix Street,
Northeast in Washington, D.C.
2. In the years after becoming Pastor of the Church
in 1999, Defendant Marcus Turner (“Turner”) seized
control over Church affairs by altering the carefully
designed and diffused allocation of authority that the
Church Constitution prescribed. With the aid of a few
select allies, most notably former Trustee Board Chair
and Defendant Russell Moore (“Moore”), Turner took
administrative and decision-making authority away
from Church leadership bodies and from the
congregation. Arrogating power to himself, Turner
created a culture of secrecy that permitted him to make
decisions and take actions unencumbered by the
approval process set forth in the Constitution.
3. In clear violation of the fiduciary duties of
loyalty, candor, good faith and care that Turner owed
to the Church and its congregants, Turner’s decisions
and actions compromised the Church’s financial health,
sometimes for Turner’s own financial benefit. For

App. 73
instance, while repeatedly representing to the
congregation that the property of the Church building
at 5820 Dix Street, Northeast (“the Church Property”)
was free of debt, Turner surreptitiously used it as
collateral for a loan to another organization he
controlled, Beulah Community Improvement
Corporation (“BCIC”). BCIC later defaulted on the loan,
causing the Church Property to be foreclosed upon and
requiring the sale of other Church property to forestall
an auction, public notice of which was the first time
Plaintiffs ever learned that the Church Property was
not, in fact, debt free. In addition, Turner used the
Church credit card for his own personal expenses,
including school tuition, trips and meals, and when
Turner ran into personal financial difficulties, he had
the Church pay him $75,000 as a “consulting fee” for
purported real estate-related work he previously had
done for BCIC.
4. Increasingly dissatisfied with how Turner was
running the Church, certain members of the Church
leadership rose up in 2009 to reclaim their authority
under the Church Constitution. They replaced Moore
as Trustee Board Chair and put austerity measures in
place, including curbing Turner’s spending, in an effort
to improve the Church’s financial condition. Turner,
however, resisted these measures so fiercely that, after
several months, members of the leadership group
threw up their hands in frustration and, one by one,
left the Church.
5. With the departure of these leaders and with
Moore reinstated as Trustee Board chair, Turner was
free to effectuate his long-term plan of revamping the

App. 74
Constitution to prevent the possibility of any similar
challenge to his authority. Amended in 2012, the
Constitution furnishes Turner unilateral authority over
Church affairs, including its financial affairs. With
unchecked power, Turner continues to violate his
fiduciary duties to the Church and the congregation by
operating in secret, by using Church funds for his own
personal benefit, by putting Church property and
assets at risk, by selling off Church property because of
his irresponsible decisions, and by causing the Church
to spend money it does not have on legal fees that the
Church has had to incur because of his misconduct.
PARTIES
6. Plaintiff Alva C. Hines is a bona fide member in
good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust
for its members. She is a resident of the State of
Maryland.
7. Plaintiff Tracy D. Jones is a bona fide member in
good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust
for its members. She is a resident of the State of
Maryland.
8. Plaintiff Marcia V. Jones is a bona fide member
in good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust
for its members. She is a resident of the State of
Maryland.
9. Plaintiff Norma Hunter is a bona fide member in
good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust

App. 75
for its members. She is a resident of the State of
Maryland.
10.
Plaintiff Betty Givens is a bona fide member
in good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust
for its members. She is a resident of the State of
Maryland.
11.
Plaintiff Daisy Johnson is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. She is a resident of the State of
Maryland.
12.
Plaintiff Willie M. Crosby is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. He is a resident of the State of
Maryland.
13.
Plaintiff Willie Minor is a bona fide member
in good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust
for its members. He is a resident of the State of
Maryland.
14.
Plaintiff James R. Brown is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. He is a resident of the State of
Maryland.
15.
Plaintiff Delores C. Brown is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in

App. 76
trust for its members. She is a resident of the State of
Maryland.
16.
Plaintiff Samuel J. Forrest is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. He is a resident of the District of
Columbia.
17.
Plaintiff Joyce Forrest is a bona fide member
in good standing of Beulah Baptist Church and a
beneficiary of the property the Church holds in trust
for its members. She is a resident of the District of
Columbia.
18.
Plaintiff Lydell Mann, Sr. is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. He is a resident of the District of
Columbia.
19.
Plaintiff Jean M. Gaskins is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. She is a resident of the State of
Maryland.
20.
Plaintiff Beatrice H. Scott is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. She is a resident of the State of
Maryland.
21.
Plaintiff Hazel E. Green is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in

App. 77
trust for its members. She is a resident of the District
of Columbia.
22.
Plaintiff Edith D. Minor is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. She is a resident of the State of
Maryland.
23.
Plaintiff Walter M. Williams is a bona fide
member in good standing of Beulah Baptist Church
and a beneficiary of the property the Church holds in
trust for its members. He is a resident of the State of
Maryland.
24.
Defendant Marcus Turner, Sr. is President
and Chair of the Board of BCIC and Pastor and Chief
Elder of Beulah Baptist Church. He has been Pastor of
the Church since 1999. He is a resident of the State of
Maryland.
25.
Defendant Russell Eugene Moore, Jr. is a
current member of the Council of Elders of Beulah
Baptist Church, past Chair of the now-defunct Trustee
Board of Beulah Baptist Church and a member of the
board of BCIC. He is a resident of the State of
Maryland.
26.
Defendant Beulah Community Improvement
Corporation is a nonprofit corporation organized and
existing under the laws of the District of Columbia. Its
principal place of business is located at 5820 Dix
Street, N.E., Washington, D.C. 20019, the same
address as the Church Property. BCIC was created to
help raise funds and assist the Church in its work to
improve the Deanwood Heights community by

App. 78
providing, among other things, job and career training,
affordable housing, adult education opportunities,
clothing and food giveaways, space for community
meetings, computer training, emergency funding and
outreach services to the poor and homeless. As a
secular organization, BCIC can receive funding from
government agencies that the Church cannot receive
because of its status as a religious institution.
27.
Defendant Columbia Bank is a full-service
commercial bank organized and existing under the
laws of the State of Maryland, with its principal place
of business located at 7168 Columbia Gateway Drive,
Columbia, MD 21046.
28.
Intervenor-Defendant SMS Financial XXVII,
L.L.C. is a privately held financial services and
investment firm organized and existing under the laws
of the State of Arizona, with its principal place of
business located at 6829 North 12th Street, Phoenix,
AZ 85014.
JURISDICTION AND VENUE
29.
This Court has jurisdiction over this matter
under District of Columbia Code § 11-921.
30.
Venue is proper in the District of Columbia
because the Church and BCIC were organized under
the laws of the District of Columbia, a substantial part
of the acts or omissions giving rise to the claims in this
Complaint occurred in the District of Columbia, and all
Defendants transacted business in the District of
Columbia at all relevant times.

App. 79
FACTS COMMON TO ALL COUNTS
The 1997 Constitution
31.
When Turner assumed his position as Pastor
in 1999, the Church was governed by a Constitution
adopted in November 1997 (“1997 Constitution”).
32.
The 1997 Constitution vested power over
Church affairs in the Church’s official boards: the
Trustee Board, the Deacon Board and the Deaconess
Board. Members of these boards were elected by the
Church membership. All three boards were required to
meet once a month as the Joint Board to share
information on the condition of the Church, act on
matters approved by the Church and prepare
recommendations to the Church for action. The Pastor
was required to meet with the Joint Board concerning
recommendations for policy and program changes.
33.
Under the 1997 Constitution, Deacons and
Deaconesses assisted the Church in its ministry, while
the Trustee Board exercised control over the Church’s
finances and property. Among other duties, the
Trustee Board had responsibility for reviewing and
executing contracts and legal documents on behalf of
the Church; determining and paying staff salaries,
including Turner’s; paying the Church’s debts; hiring
all non-cleric staff; providing an annual audit of the
Church’s financial records; and acquiring, maintaining,
repairing and replacing all the Church’s property.
34.
Under the 1997 Constitution, Church
members had the right to vote on all matters affecting
the status of the Church. The Joint Board was
responsible for preparing recommendations to the

App. 80
Church membership for action and for acting on
matters approved by the Church membership. The
Trustee Board was responsible for carrying out lawful
instructions received from the Church membership.
Turner’s Consolidation of Control over Church
Affairs and Concomitant Abuse of the
Church’s Finances
35.
From the beginning of his tenure, Turner
sought to obtain more control and decision-making
authority over the Church’s affairs than the 1997
Constitution provided him. To that end, Turner
gradually consolidated power by co-opting a small
handful of influential members of the Trustee and
Deacon Boards, including Moore.
36.
Moore used his position as Chair of the
Trustee Board to assist Turner in his efforts to gain
more power over Church affairs. Turner guaranteed
Moore’s loyalty by, inter alia, financially compensating
Moore for his service on the BCIC board. For instance,
in 2006, 2007 and 2008, Moore received $9,404, $29,166
and $8,333, respectively, for his BCIC board service.
37.
Although the 1997 Constitution provided the
Trustee Board control over Church finances and
property, guaranteed the Church membership the right
to vote on all matters affecting the status of the Church
and gave the Joint Board the authority to act on
matters approved by the membership, Turner
effectively came to exercise all of those powers himself
over time. Aided by Moore and the others he had coopted, Turner made decisions regarding the acquisition
and sale of Church property, the indebtedness of the

App. 81
Church and the expenditure of Church resources
without the constitutionally-required approvals of the
Trustee Board, the Joint Board or the Church
membership. Church members, even members of the
Trustee and Joint Boards, learned about Turner’s
actions only after-the-fact, if at all. Key decisions
affecting the welfare of the Church, particularly its
financial welfare, were shrouded in secrecy.
38.
Having wrested power from the decisionmaking organs of the Church, Turner was able to use,
and did use, Church funds for his own personal benefit.
He charged to the Church credit card meals, fuel for his
personal car, dry cleaning, vacations, personal lawn
care and exorbitant cell phone bills, which included
home internet and cable television services. He had the
Church pay for his own continuing education, his wife’s
education and his son’s tuition, including, for example,
$14,000 in tuition payments in 2008. He had the
Church cover personal tax liabilities, including $3,000
in 2008. Moreover, he had the Church establish and
pay premiums on life insurance policies for both him
and his wife, and had the Church pay his wife $500 on
at least two occasions for delivering speeches at the
Church.
39.
With the exception of Moore and several
other Turner confederates, including financial
secretary Jacquelyne Giles, no one in the Church,
including the Trustee Board, knew at the time that
Turner was using Church funds for his own personal
expenses.
40.
Turner’s personal expenses were paid out of
the Church’s operating account, which was often

App. 82
insufficient to cover the Church’s expenses, let alone
Turner’s. To make up any difference, the operating
account was replenished using funds from the Church’s
other accounts, including its building, scholarship and
investment accounts. Often at Moore’s direction, the
funds were transferred into the Church’s operating
account and approved for disbursement to Turner
without the knowledge or approval of the Trustee
Board.
41.
As of the summer of 2008, Turner was having
personal financial difficulties. He approached Moore
and Deacon Board chair Thomas Harrison and asked
the Church to pay him a $100,000 “consulting fee” for
purportedly having served as a real estate “consultant”
for the Church and BCIC and for purportedly having
secured government grants to acquire property for
BCIC. The amount requested was wholly arbitrary.
There had been no contract or agreement to pay Turner
for real estate “consulting,” especially from Church
funds. Nevertheless, in August 2008, Moore submitted
a request for, approved and had paid an initial
installment of $50,000. He accomplished the payment
by having funds transferred from the Church’s
operating account into the Church’s general reserve
fund and then having the money paid out of the general
reserve fund. Two months later, Moore did the same
thing for a second installment of $25,000. In
contravention of the 1997 Constitution, neither the
Trustee Board, the Joint Board nor the Church
membership approved paying Turner $75,000 as
“consulting fee” for real estate-related work he
supposedly did for BCIC.

App. 83
42.
At another point, Turner received $35,000
from the operating account, purportedly for helping the
Church save money. Upon information and belief,
Moore also facilitated this payment. In contravention
of the 1997 Constitution, neither the Trustee Board,
the Joint Board nor the Church membership approved
the payment.
Turner’s Property Acquisitions and
Loan Transactions
43.
In or about 1976, the Church membership
held a mortgage burning ceremony to celebrate the
discharge of all prior indebtedness on the Church
Property. And when Turner assumed his position as
Pastor, the Church owned the Church Property free
and clear with no debt.
44.
Soon after becoming Pastor, Turner
developed a plan to expand the Church’s property
holdings. A real estate investor himself, Turner
represented that expansion would benefit the Church
and surrounding community and would not put the
Church Property at risk.
45.
Between
2003
and
2008,
the
Church—through Turner and Moore—purchased at
least seven properties in the Deanwood Heights
neighborhood. In violation of the 1997 Constitution,
neither the Trustee Board nor the Joint Board nor the
congregation was consulted about or approved these
transactions before they were consummated.
46.
Between
2003
and
2008,
the
Church—through Turner and Moore—entered into no
fewer than five loan agreements encumbering the

App. 84
Church Property. Again, in violation of the 1997
Constitution, neither the Trustee Board nor the Joint
Board nor the congregation approved these
transactions. Throughout the period during which
these loans were obtained, Turner continued to
represent that the Church Property remained debt free
and that he would never place the property at risk.
47.
In March 2003, the Church Property was
encumbered to secure a $610,000 loan.
48.
In June 2003, the Church Property was
encumbered to secure a $447,000 loan.
49.
In November 2004, the Church Property was
encumbered to secure a $2,000,000 loan.
50.
In April 2007, the Church Property was
encumbered to secure a $3,250,000 loan. Upon
information and belief, this loan consolidated and
replaced the remaining indebtedness from the 2003
and 2004 loans.
51.
In July 2008, the Church Property was
encumbered by yet another loan for $3,230,000. This
time, however, the Church was the guarantor of the
loan. BCIC was the borrower. And The Columbia Bank
was the lender. Upon information and belief, the loan
served to extinguish the April 2007 loan to the Church,
but kept the Church Property encumbered and left it
subject to BCIC’s ability to repay.
52.
The July 2008 transaction was consummated
without the knowledge, much less the constitutionallyrequired approval, of the Trustee Board, the Joint
Board or the Church membership.

App. 85
53.
Turner executed the Deed of Trust, Security
Agreement and Assignment of Leases and Rents for the
July 2008 transaction on behalf of BCIC. At Turner’s
direction and unbeknownst to Plaintiffs and the rest of
the Church membership, Jacquelyne Giles purported to
execute the agreement on behalf of the Church. Giles
signed in place of Charles Dorsey, who was Assistant
Chairman of the Trustee Board. Dorsey’s name was
crossed out on the document and Giles’ name was
substituted, with the word “Trustee” written beside it.
Giles, however, was not a Trustee, had no authority to
sign on behalf of the Church and no authority to put up
the property of the Church as collateral for the loan.
54.
At the same time, upon information and
belief, Giles, at Turner’s direction, also purported to
execute on behalf of the Church a Guaranty Agreement
that guaranteed the July 2008 loan to BCIC. Again,
Giles had no authority to sign on behalf of the Church
and no authority to guarantee the loan to BCIC on
behalf of the Church.
55.
Even though she had no authority to act on
behalf of the Church, Giles, at Turner’s direction, also
executed a Special Warranty Deed as part of the July
2008 transaction. The Special Warranty Deed
purported to convey a valuable ¾ acre lot located on
58th Street, NE, at Lot 44/Square 5228 from the Church
to BCIC. Although the purchase price on the deed was
identified as ten dollars, the Recorder of Deeds’ records
show that the purchase price was zero dollars. Giles,
who signed the deed as a Church “Trustee” and as the
Church’s “attorney-in-fact,” was not a Trustee or an

App. 86
attorney-in fact and had no authority to undertake this
transaction on behalf of the Church.
56.
On or about July 31, 2008, Giles, also at
Turner’s direction, executed a Special Warranty Deed
purporting to convey Church property located at 60296033 Dix Street to an entity called “Dix Street Corridor
Senior Housing LP.” The address for this entity is the
same as the Church’s address, 5820 Dix Street,
Northeast. Giles, who signed as a Church “Trustee”
and as the Church’s “attorney-in-fact,” was not a
Trustee or an attorney-in fact and had no authority to
undertake this transaction on behalf of the Church.
57.
Contrary to the requirements of the 1997
Constitution, neither the Trustee Board nor the Church
membership authorized the July 2008 transactions,
and neither otherwise authorized the transfer,
disposition or encumbrance of any Church property.
Indeed, as with previous property acquisitions and loan
transactions, the July 2008 transactions were never
submitted to the Trustee Board, the Joint Board or the
congregation for their consideration and approval,
despite the requirements of the 1997 Constitution.
58.
The Columbia Bank did not investigate or
otherwise take proper measures to learn whether Giles
had the authority to sign on behalf of the Church, as
guarantor, the July 2008 loan and guaranty documents
encumbering the Church Property.
59.
As set forth below, none of the plaintiffs knew
about the July 2008 transactions until January 2014,
when they saw a notice in The Washington Post that
the Church Property was going to be auctioned.

App. 87
60.
With the exception of Moore, Giles and
possibly a few other confederates, Turner kept the
Church membership, including Church leadership, in
the dark about the July 2008 transactions. Turner
repeatedly assured both the leadership and the
congregation that the property transactions in which
he engaged did not encumber or otherwise put at risk
the Church Property. In fact, in early 2010, when
Church leadership began demanding that Turner
account for the Church’s financial condition, Turner
assembled a report in which he continued to represent
that the Church Property was “debt free,” even though
he knew that the property was being used as collateral
for the July 2008 loan to BCIC.
Turner’s Resistance to Reform
61.
In late 2009, the Church leadership
determined that it needed to make changes in the
management of the Church’s finances. The Church was
in financial distress in part because of Turner’s
profligate spending. Correspondingly, members of the
Church leadership determined that the Church needed
to place limits on Turner’s authority and return to the
balanced management structure set forth in the 1997
Constitution, with the Trustee Board exercising control
over the Church’s finances and the full Church
membership having the opportunity to engage in
important decisions affecting the Church.
62.
In late 2009, the Trustee Board elected Fran
Horne, a member of the Church for over 25 years and
a long-standing Trustee Board member, to replace
Moore as Chair. Many saw Moore as Turner’s proxy,
particularly once it became known that Moore had

App. 88
acquiesced in and authorized payment of, inter alia,
Turner’s “consulting fee” from the Church’s operating
account.
63.
To ensure the Church’s continued financial
stability, the Trustee Board, led by Horne, immediately
sought to implement tight controls over Church
spending and more rigorous bookkeeping and financial
reporting procedures.
64.
Once the Trustee Board leadership began to
scrutinize the Church’s spending patterns, they learned
that Turner had been using Church funds to pay for a
number of personal expenses. As a result, among the
reforms they promptly implemented, the Trustee Board
refused to have the Church continue paying for many
of Turner’s personal expenses, took away Turner’s
Church credit card and sought to tightly define
Turner’s compensation package.
65.
The Trustee Board also required Turner to
deliver financial reports for both the Church and BCIC
for 2009. These reports contained a number of material
misrepresentations concerning, among other things,
indebtedness on Church properties.
66.
In only a few months after the Trustee Board
began implementing changes in the way the Church
managed its finances, the Church’s income increased
and its indebtedness diminished.
67.
Turner chafed at the Trustee Board’s actions.
He saw them as a challenge to his authority. Unable to
co-opt Horne and others as he had Moore, Turner
began a campaign to bully and intimidate Horne. The
effort culminated in a phone call to Horne’s workplace

App. 89
in which Turner berated Horne for challenging his
authority. The tirade prompted Horne to resign as
Chair of the Trustee Board after only four months. She
left the Church at the same time.
68.
Horne’s resignation was the first in a chain of
resignations by active church leaders who had
spearheaded reform efforts but ultimately gave up on
trying to persuade Turner to respect and adhere to the
1997 Constitution.
69.
Upon Horne’s resignation, Moore was
reinstated as Chair of the Trustee Board. With Moore
again in charge, reform efforts essentially ceased.
70.
Turner resumed de facto control over the
Church’s finances and, upon information and belief,
resumed use of Church funds for his personal expenses.
71.
Upon information and belief, Turner
continues to use Church money to pay for personal
expenses, including legal fees.
72.
After successfully defeating the effort to curb
his authority, Turner also reasserted control over the
Church’s decision-making bodies. He actively blocked
Trustee Board appointments of individuals who he
thought would oppose him.
73.
In 2011, no longer facing any challenge to his
authority from Church leadership, Turner, aided by
Moore, entered into another loan agreement
encumbering Church property. The loan, for $900,000,
was ostensibly obtained to renovate the Church’s
kitchen and other Church facilities. But upon
information and belief, much of the money was used for

App. 90
other purposes unrelated to the mission of the Church.
The kitchen renovation contract was for $240,000, but
the Church paid the contractor only a third of it,
$80,000, before the contractor had to stop work to have
mold issues resolved. The contract for other repairs,
including HVAC installation, was for $140,000, but the
Church paid only $82,500 of it. Thus, even though the
Church had obtained a $900,000 for renovation and
repair work, Turner only paid $162,500 for such work.
Nonetheless, Turner claimed to the contractor that the
Church could not pay the rest of what it owed on the
contract for other repairs, $57,500.
74.
Moreover, Turner obtained from the
contractor a $105,000 loan by telling the contractor
that the Church and BCIC were in trouble and needed
help satisfying the debt from the July 2008 loan
encumbering the Church Property. When the
contractor insisted on repayment, Turner refused.
75.
Upon information and belief, Turner had
access to the bank account in which the money from
the $900,000 was deposited. Turner drew down funds,
but did not use them to fully satisfy the amounts the
contractor was owed.
76.
As described below, the contractor sued the
Church, BCIC and Turner to recover the amounts
Turner refused to pay.
Turner’s New Constitution
77.
Turner had long seen the 1997 Constitution
as an impediment to his ability to exercise complete
control over Church affairs. The reforms Church
leadership unsuccessfully sought to implement in early

App. 91
2010 confirmed his view. Determined that his authority
should not be challenged again, Turner embarked on a
plan to replace the 1997 Constitution with a new
Constitution that provided him practically unfettered
power over Church affairs.
78.
Turner promoted his new Constitution by
arguing that the Bible does not contemplate Church
authority residing in a Trustee Board or in the
congregation, as the 1997 Constitution provided;
rather, Turner maintained, the Bible contemplates
Church authority residing in one person and one
person only—the Pastor.
79.
After a period of study, a Constitution
committee comprised of Turner, Turner’s wife, Moore,
Moore’s wife and three other confederates drafted a
new Constitution that reflected Turner’s desire to
exercise unilateral control over Church affairs.
80.
Turner advocated vigorously for adoption of
the new Constitution.
81.
The 1997 Constitution contained a very
precise procedure for how amendments were to be
enacted. Article XX provided:
All amendments to this Constitution must be
presented to the Church in a regular Church
Conference and referred to the Joint Board for
study. At the conclusion of its study, the Joint
Board will make recommendations at the next
Church Conference to accept, reject or change
the proposed amendment(s). Announcements
regarding the pending action must be made at
each worship service, beginning at least two

App. 92
weeks prior to the Church Conference. In
addition, a copy of the proposed amendment(s)
will be mailed the entire membership. Threefourths of the members present at the Church
Conference must vote in favor of the amendment
for it to become part of the Constitution.
82.
In April 2012, as a result of Turner’s efforts,
the 1997 Constitution was replaced with Turner’s new
Constitution. However, the procedure Turner followed
for adopting the new Constitution did not comply with
the 1997 Constitution’s requirements for amendment.
There was no presentation of the new Constitution to
the Church membership at a regular Church
Conference for referral to the Joint Board for study.
Announcements about the proposed changes were not
made at each worship service beginning at least two
weeks prior to the regular Church Conference at which
a vote would be taken. Copies of the proposed changes
were not mailed to the entire membership before the
vote. The vote was not taken at a regular Church
Conference. And when the vote was taken, there was
no means of assuring that the individuals who voted
were Church members.
83.
The new Constitution expressly vests plenary
authority over all Church affairs in Turner, “being the
delegated authority from G-d.” There is no Trustee
Board. There is no Deacon or Deaconess Board. There
is no Joint Board. There are only advisory committees
whose members are appointed by Turner, serve at
Turner’s pleasure and, unlike the Trustee Board, the
Joint Board and the Church membership-at-large

App. 93
under the 1997 Constitution, possess no management
or decision-making authority at all.
84.
All decision-making authority under the new
Constitution resides in a Council of Elders. But the
Council of Elders consists of only three people: Turner
and two others. And Turner, as Chief Elder, enjoys the
power to appoint and remove the others, as well as the
power to override any decision the other two might
wish to make.
85.
Since the adoption of the new Constitution,
Moore and another Turner confederate, Frank Sutton,
have served as the two additional Elders.
86.
Since the adoption of the new Constitution,
Turner has kept the Church members in the dark
about the Church’s finances. There is a complete lack
of transparency and accountability. At one time, under
the 1997 Constitution, the Church’s financial
statements were shared routinely with the Church
membership. Under the new Constitution, Turner has
simply stopped sharing substantive financial
information with Church members. Similarly, whereas
under the 1997 Constitution the financial secretary and
the ministries created an annual budget that would be
presented for approval at the Church’s annual meeting,
Turner has wrested control of the budget process under
the new Constitution and does not discuss it with
Church members, much less seek approval for it.
87.
Under the new Constitution, onceinformational congregational meetings have become
both rare and perfunctory. For instance, in late 2014,
at the most recent business meeting of the Church,

App. 94
Turner refused to share any information about the
finances of the Church. Despite congregational
requests, he provided no information about balances in
Church accounts, the amount of income for the year,
the budget for the following year or the amount of debt.
Church members thus provide tithes and offerings but
have no idea how their contributions are being used or
what the financial condition of the Church is.
88.
Upon information and belief, Turner has
consolidated all formerly separate Church
accounts—e.g., the operating account, general reserve
fund, expansion fund, scholarship fund and ministry
fund—into one account. This makes it even harder to
track how the Church’s income is being allocated and
spent.
Turner’s Continued Financial Mismanagement
and Self-Dealing
89.
BCIC defaulted on the July 2008 loan secured
by the Church Property. To avoid foreclosure, BCIC
entered into a series of forbearance agreements with
the lender—ultimately, SMS Financial XXVIII, LLC,
which assumed the loan from Columbia Bank. In
January 2014, after expiration of the last of these
agreements, SMS Financial published notice of a
foreclosure sale, set for February 2014, in The
Washington Post.
90.
Plaintiffs read about the foreclosure sale in
The Washington Post. Because Turner had concealed
the July 2008 transaction from the Church
membership, this was the first time any of the
Plaintiffs learned that the July 2008 loan had been

App. 95
made to BCIC, that the Church was guarantor on the
loan or that the Church Property served as security for
the loan.
91.
To prevent foreclosure and pay down its debt,
BCIC and Turner were forced to sell off other BCIC
properties. One of these properties was the vacant lot
that the Church conveyed to BCIC in July 2008 for
free. Others included the properties at 6029-6033 Dix
Street, which the Church apparently sold to “Dix Street
Corridor Senior Housing LP” in July 2008.
92.
Turner also has engaged in reckless conduct
that has further compromised the financial condition of
the Church.
93.
Turner was sued for sexual harassment by
former confederate Jacquelyne Giles. Upon information
and belief, the Church incurred legal fees paying for
Turner’s defense and expended funds to settle the case.
94.
As described above, Turner took out a
$900,000 loan for the Church, ostensibly to pay for
renovation and repairs. Despite the fact that the cost of
the renovation and repairs totaled less than 25% of the
amount loaned, Turner claimed the Church could not
fully satisfy its obligations to the contractor. As a
result, the contractor filed a mechanic’s lien against the
Church in December 2012 in the amount of $57,500.
95.
Telling the contractor that the Church was
having trouble repaying the July 2008 loan to BCIC
and was at risk of default, Turner also persuaded the
contractor to loan BCIC $105,000 in exchange for the
Church maintaining the kitchen renovation contract
and furnishing the contractor other business

App. 96
opportunities. Turner, however, refused to repay the
loan, contending that it was a “donation.”
96.
In 2014, because Turner refused to pay the
contractor the full amount for the repair work and
refused to repay the $105,000 loan, the contractor sued
the Church, as well as Turner and BCIC. The Church
was forced to incur legal fees and to expend funds to
settle the lawsuit—a lawsuit prompted by Turner’s
mismanagement of Church funds and by Turner’s
dishonesty.
97.
Upon information and belief, because of
Turner’s financial mismanagement and irresponsible
conduct, the Church’s operating account periodically
carries a negative balance and the Church struggles to
cover routine operating expenses. In addition, the
Church is no longer providing things it once provided,
e.g., basic repair and maintenance of various Church
facilities, full funding for positions like sexton,
scholarships for graduating seniors, a sufficient
number of Bibles and hymnals in the pews, Sunday
school books and snacks for students, and tuition for
vacation Bible school.
COUNT ONE:
BREACH OF FIDUCIARY DUTY
(AGAINST TURNER AND MOORE)
98.
Paragraphs 1 – 97 are incorporated by
reference as if they were restated here in their entirety.
99.
As Pastor and Chief Elder, Defendant Turner
owed and continues to owe fiduciary duties to Plaintiffs
as bona fide members of the Church and as
beneficiaries of the trust property of the Church.

App. 97
100. As a member of the Council of Elders and
past Chair of the now-defunct Trustee Board,
Defendant Moore owed and continues to owe fiduciary
duties to Plaintiffs as bona fide members of the Church
and as beneficiaries of the trust property of the Church.
101. Defendants Turner and Moore owed and
continue to owe Plaintiffs enhanced fiduciary duties
because, aided and abetted by Defendant Moore,
Defendant Turner arrogated to himself near-complete
control over Church affairs, including the Church’s
finances.
102. Defendants Turner and Moore had and
continue to have a fiduciary duty of loyalty to the
Church and to Plaintiffs. As part of their fiduciary duty
of loyalty, Defendants Turner and Moore were and
continue to be required to act at all times in the best
interests of the Church and its membership and to
refrain from self-dealing as to the management and use
of Church property and funds.
103. The duty of loyalty encompasses a duty of
candor to the Church and to Plaintiffs. As part of their
duty of candor, Defendants Turner and Moore were and
continue to be required to provide Plaintiffs, and not to
withhold, accurate information about Church affairs,
including information about the income, expenses,
debts, acquisitions, sales and financial condition of the
Church.
104. Defendants Turner and Moore had and
continue to have a fiduciary duty of good faith to the
Church and to Plaintiffs. To satisfy their duty of good
faith, Defendants Turner and Moore were and continue

App. 98
to be required to deal with Plaintiffs in good faith and
with conscientious fairness, morality and honesty.
105. Defendants Turner and Moore had and
continue to have a fiduciary duty of due care to the
Church and to Plaintiffs. The duty of due care required
and continues to require Defendants Turner and Moore
to remain informed about the Church’s financial
condition, ensure maintenance of accurate Church
books and records, make decisions and take actions
that protect and preserve Church assets, manage
Church income, expend Church funds responsibly and
refrain from wasting or wrongfully diminishing Church
assets or appropriating such assets for their own use.
106. Defendant Turner, aided and abetted by
Defendant Moore, breached and continues to breach
the fiduciary duties of loyalty, candor, good faith and
due care owed to the Church and to Plaintiffs through
the actions and omissions described above, including
by, inter alia: (i) surreptitiously and without
authorization encumbering the Church Property to
secure a loan and then causing the Church Property to
go into foreclosure and be put up for auction by
defaulting on the loan; (ii) falsely representing to
Plaintiffs and the Church membership that the Church
Property was debt free and never at risk and
concealing the fact that the Church Property was
encumbered; (iii) surreptitiously conveying a valuable
piece of Church property—Lot 44/Square 5228 in the
District of Columbia—to BCIC for free; (iv) concealing
and refusing to share information about the Church’s
financial condition, including its income, expenses,
debts and property transactions; (v) using Church

App. 99
funds for Defendant Turner’s own personal benefit by
charging his personal expenses to the Church credit
card and otherwise paying for his personal expenses
out of the Church’s operating account; (vi) violating the
1997 Constitution to force adoption of a new
Constitution that provides Defendant Turner
unfettered authority over Church affairs; (vii) engaging
in irresponsible conduct—including sexual harassment
and refusal to comply with contractual payment
requirements—that has led to lawsuits requiring the
Church to incur legal fees and pay damages;
(viii) wasting the proceeds of a $900,000 loan to the
point where the Church could not fully pay a contractor
owed a total of less than a quarter of the loan amount;
and (ix) engaging in other conduct, including acts of
self-dealing, that wasted or compromised Church
assets.
107. As a direct and proximate result of
Defendants’ unlawful conduct, Plaintiffs, as bona fide
members of the Church, have been and will continue to
be damaged.
COUNT TWO:
CONVERSION
(AGAINST TURNER AND MOORE)
108. Paragraphs 1 – 107 are incorporated by
reference as if they were restated here in their entirety.
109. Defendant Turner, aided and abetted by
Defendant Moore, exercised and continues to exercise
unauthorized ownership, dominion and control over
funds rightfully belonging to the Church by using the

App. 100
Church credit card and otherwise taking and utilizing
Church funds for personal expenses.
110. As a direct and proximate result of
Defendants’ conversion and repudiation of the Church’s
rightful ownership of Church property for Defendant
Turner’s personal benefit, Plaintiffs, as bona fide
members of the Church, have been and will continue to
be damaged.
COUNT THREE:
UNJUST ENRICHMENT
(TURNER AND MOORE)
111. Paragraphs 1 – 110 are incorporated by
reference as if they were restated here in their entirety.
112. Defendant Turner, aided and abetted by
Defendant Moore, received and continues to receive
benefits from Plaintiffs, as bona fide members of the
Church, in the form of money obtained directly or
indirectly from the Church and used for Defendant
Turner’s personal expenses.
113. Defendants Turner and Moore knew that
Defendant Turner received the benefit of Church funds
to pay for personal expenses.
114. Defendants Turner and Moore know that
Defendant Turner continues to receive the benefit of
Church funds to pay for personal expenses.
115. Defendant Turner’s retention of Church
funds used for personal expenses would be unjust.
116. As a direct and proximate result of
Defendants’ conduct, Plaintiffs, as bona fide members

App. 101
of the Church, have been and will continue to be
damaged.
COUNT FOUR:
CIVIL CONSPIRACY
(AGAINST TURNER, MOORE AND BCIC)
117. Paragraphs 1 – 116 are incorporated by
reference as if they were restated here in their entirety.
118. Defendants Turner, Moore and BCIC,
together with others, combined, conspired and agreed,
and continue to combine, conspire and agree, to
(i) breach the fiduciary duties of loyalty, candor, good
faith and due care Defendants Turner and More owe to
the Church and to Plaintiffs as bona fide members of
the Church, (ii) exercise, and permit Defendant Turner
to exercise, unauthorized ownership, dominion and
control over funds rightfully belonging to the Church,
and (iii) unjustly enrich Defendant Turner.
119. Overt acts committed in furtherance of the
common, unlawful scheme of Defendants Turner,
Moore, BCIC and their co-conspirators have included:
(i) surreptitiously and without proper authorization
encumbering the Church Property in July 2008 to
secure a loan for BCIC; (ii) surreptitiously and without
proper authorization conveying a valuable piece of
Church property—Lot 44/Square 5228 in the District of
Columbia—from the Church to BCIC for free in July
2008; (iii) failing to make adequate payments to satisfy
the July 2008 loan, which caused the Church Property
to go into foreclosure and be put up for auction;
(iv) using Church funds to pay for Defendant Turner’s
personal expenses; (v) obtaining a $105,000 loan from

App. 102
a construction contractor for the ostensible purpose of
helping to pay off BCIC’s indebtedness on the July
2008 loan; (vi) refusing to repay the $105,000 loan,
which triggered a lawsuit requiring the Church to incur
attorneys’ fees and liability; (vii) concealing and
refusing to share information about the Church’s
financial condition, including its income, expenses,
debts and property transactions; and (viii) obtaining in
April 2011 a $900,000 loan encumbering additional
Church property.
120. As a direct and proximate result of the
unlawful agreement among Defendant Turner,
Defendant Moore, Defendant BCIC and their coconspirators, Plaintiffs, as bona fide members of the
Church, have been and will continue to be damaged.
COUNT FIVE:
NEGLIGENCE
(AGAINST THE COLUMBIA BANK)
121. Paragraphs 1 – 120 are incorporated by
reference as if they were restated here in their entirety.
122. Neither Defendant Turner nor Jacquelyne
Giles had any authority, under the 1997 Constitution
or otherwise, to encumber the Church Property.
123. Defendant Columbia Bank had a duty to
exercise reasonable care in loaning over three million
dollars to BCIC in July 2008 and in requiring the
Church to guarantee the loan with the Church
Property.
124. As part of its duty to exercise reasonable
care, Defendant Columbia Bank was obligated to

App. 103
ensure that Jacquelyne Giles in fact had proper
authority to execute the loan documents on behalf of
the Church and, correspondingly, to guarantee the loan
with and encumber the Church Property.
125. Defendant Columbia Bank failed to exercise
reasonable care in loaning over three million dollars to
BCIC in July 2008 and in requiring the Church to
guarantee the loan with the Church Property because
it failed to investigate and confirm whether Jacquelyne
Giles had any authority to execute the loan documents
on behalf of the Church and, correspondingly, to
guarantee the loan with and encumber the Church
Property.
126. Had Defendant Columbia Bank exercised
reasonable care in loaning over three million dollars to
BCIC in July 2008 and in requiring the Church to
guarantee the loan with the Church Property, it would
have determined that Jacquelyne Giles did not have
proper authority to execute the loan documents on
behalf of the Church or to guarantee the loan with and
encumber the Church Property.
127. As a direct and proximate result of Defendant
Columbia Bank’s negligence, Plaintiffs, as bona fide
members of the Church, have been and will continue to
be damaged.
COUNT SIX:
ACCOUNTING
(AGAINST TURNER, MOORE and BCIC)
128. Paragraphs 1 – 127 are incorporated by
reference as if they were restated here in their entirety.

App. 104
129. Defendants Turner and Moore, as Elders of
the Church, have a duty to account and provide
information to the Church membership, including
Plaintiffs, regarding the finances of the Church.
130. Defendants Turner and Moore have not
abided by their duty to account and provide
information to the Church members, including
Plaintiffs, regarding the finances of the Church.
131. As set forth above, Defendant Turner and
Defendant Moore also have violated their fiduciary
duties to the Church membership and to Plaintiffs,
have unlawfully converted Church property for
Defendant Turner’s use, and have unjustly enriched
Defendant Turner at the Church’s expense. Moreover,
as set forth above, Defendants Turner, Moore and
BCIC have combined, conspired and agreed to commit
these acts.
132. The financial relationship among Defendant
Turner, the Church and BCIC (which is Defendant
Turner’s alter ego even more than it is the Church’s) is
extremely close. At Defendant Turner’s direction, the
Church has loaned money to BCIC, sold or given
property to BCIC, and served as guarantor on
Community Bank’s $3.23 million loan to BCIC.
133. As a result of the unlawful actions of
Defendant Turner, Defendant Moore and Defendant
BCIC, Defendants Turner and BCIC have received
money and property, a portion of which is due the
Church.
134. As a result of the unlawful actions of
Defendant Turner, Defendant Moore and Defendant

App. 105
BCIC, the Church has been deprived of money and
property other than money and property received by
Defendant Turner and BCIC.
135. The amount of money due the Church from
Defendant Turner and Defendant BCIC because of the
unlawful actions of Defendant Turner, Defendant
Moore and Defendant BCIC is unknown to Plaintiffs
and cannot be ascertained without an accounting of the
finances of the Church, Defendant BCIC and
Defendant Turner, including their income, expenses,
assets and debt.
136. Because Defendant Turner and Defendant
Moore have a duty to account to Plaintiffs regarding
the Church’s finances, and because the amount of
money due from Defendant Turner and Defendant
BCIC to the Church is indiscernible without access to
the financial records of the Church, Defendant BCIC
and Defendant Turner, Plaintiffs, as bona fide
members of the Church, are entitled to an accounting
of the Church’s books and records, Defendant BCIC’s
books and records and Defendant Turner’s books and
records.
COUNT SEVEN:
DECLARATORY JUDGMENT
137. Paragraphs 1 – 136 are incorporated by
reference as if they were restated here in their entirety.
138. There is an actual, justiciable controversy as
to whether the July 2008 Deed of Trust, Security
Agreement and Assignment of Leases and Rents and
the July 2008 Guaranty Agreement are enforceable
contracts as against the Church.

App. 106
139. In July 2008, at the direction of Turner and
without the knowledge or approval of Plaintiffs or the
rest of the Church membership, Jacquelyne Giles
purported to execute a Deed of Trust, Security
Agreement and Assignment of Leases and Rents on
behalf of the Church, pledging Church property as
collateral for a loan to BCIC. Acting unilaterally, Giles
had no authority to sign this agreement on behalf of
the Church or otherwise to encumber Church property
as collateral for a loan. Before Giles would have had
authority to enter into such an agreement, the Joint
Board would have had to present a resolution to the
Church membership, the Church membership would
have had to vote its approval, and the Trustee Board
would have had to designate her to sign the agreement.
None of these things happened.
140. At the same time, and again at the direction
of Turner and without the knowledge or approval of
Plaintiffs or the rest of the Church membership, Giles
purported to execute, on behalf of the Church, a
Guaranty Agreement that guaranteed the Bank’s loan
to BCIC. Acting unilaterally, Giles had no authority to
sign this agreement on behalf of the Church or to
encumber Church property as collateral for a loan.
Before Giles would have had authority to enter into
such an agreement, the Joint Board would have had to
present a resolution to the Church membership, the
Church membership would have had to vote its
approval, and the Trustee Board would have had to
designate her to sign the agreement. None of these
things happened.

App. 107
141. Because Giles had no authority to sign either
the Deed of Trust, Security Agreement and Assignment
of Leases and Rents or the Guaranty Agreement, both
agreements are null and void, without effect and
unenforceable.
142. Accordingly, Plaintiffs seek a declaration that
(i) the July 2008 Deed of Trust, Security Agreement
and Assignment of Leases and Rents and the July 2008
Guaranty Agreement are null and void, without effect
and unenforceable, and (ii) the Church is discharged
from any and all obligations it has as guarantor under
those Agreements.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request that
this Court enter judgment in their favor and against
Defendants, and issue an Order:
(1)

Declaring null and void both the July 2008
Deed of Trust, Security Agreement and
Assignment of Leases and Rents and the July
2008 Guaranty Agreement, and discharging
the Church from any and all obligations it
has as guarantor under those Agreements;

(2)

Permanently enjoining Turner and Moore
from making decisions, taking actions or
otherwise exercising authority regarding
Church finances and Church property;

(3)

Requiring a full accounting of the financial
records of the Church, Turner and BCIC;

App. 108
(4)

Declaring null and void the existing Church
Constitution as having been adopted in
violation of the contract embodied in the
1997 Constitution;

(5)

Awarding Plaintiffs, as bona fide members of
the Church, damages for the benefit of the
Church in an amount to be proven at trial;

(6)

Awarding Plaintiffs, as bona fide members of
the Church, pre- and post-judgment interest
for the benefit of the Church;

(7)

Awarding Plaintiffs their
reasonable attorneys’ fees;

(8)

Granting such other relief as the Court
deems just and proper.

costs

and

DEMAND FOR TRIAL BY JURY
Plaintiffs request a jury trial on all issues triable by
jury.
Dated: June 17, 2015
Respectfully submitted,
/s/ Seth Rosenthal
Seth A. Rosenthal (#482586)
Calvin R. Nelson (#984656)
VENABLE LLP
575 7th St NW
Washington D.C. 20004
(202) 344-4000 (phone)
(202) 344.8300 (fax)
sarosenthal@Venable.com

App. 109
crnelson@Venable.com
Counsel for Plaintiffs
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 110

APPENDIX H

The Beulah Baptist Church of Deanwood Heights
“The Church With the Family Spirit”
5820 Dix Street, N.E.
Washington, DC 20019
Telephone: 202-396-5368

Church Constitution

App. 111
THE CONSTITUTION
of the
BEULAH BAPTIST CHURCH OF
DEANWOOD HEIGHTS
ARTICLE I. NAME.
The name of this Church shall be Beulah Baptist
Church of Deanwood Heights (hereinafter called
“Beulah” or “the Church”).
ARTICLE II. PURPOSE.
Beulah is a Missionary Baptist Church modeled after
the New Testament Church, whose members are
baptized believers in Jesus Christ. Beulah’s purpose is
to carry out the mission of the New Testament Church
in five areas: ministry; evangelism; discipleship;
fellowship; and worship.
ARTICLE III. CHURCH MEMBERSHIP.
Section 1. Qualification for Membership.
Any regenerated person, who professes faith in the
Lord Jesus Christ and agrees to follow the ordinances,
regulations, and policies of this church, including
baptism by immersion, may be accepted for
membership.
Section 2. Preparation for Membership.
Prospective members must attend any new member
orientation classes in effect at the time be seeks
membership. This orientation shall include the policies
of this church and the provisions of our Church
Covenant.

App. 112
Section 3. Manner of Admission.
A person may be admitted into membership in one
of three ways: By baptism; by letter of commendation
from the church where he previously held membership;
or, by Christian experience.
Section 4. Reception into Membership.
After the new member has met all requirements for
admission, and promises to adhere to the provisions of
our Church Covenant, he will be given the right hand
of fellowship. He is then entitled to all rights and
privileges of membership until the relationship is
dissolved.
Section 5. Rights and Privileges of Members.
Every member in good standing shall have the right
to vote on matters affecting the status of the church
and to hold any office for which he is qualified.
Children, as well as adults, have and should enjoy the
right to vote and hold any office for which they qualify,
as long as they can do so independently and
responsibly.
Section 6.

Dismissal of Members.

a. Any member of this Church who could have, and
has not, attended its services or contributed
financially to its support for one year, and who
has not responded after being contacted by the
Deacons and/or Trustees, shall without any
further action by the Church, be placed on the
list of inactive members. He may be restored to
membership, without any action by the Church,
when he shows renewed interest in the Church.
If, after two years, he is still inactive, the

App. 113
Church may decide the fate of such members,
and the records of the Church Clerk shall be so
noted.
b. A member may request a letter of commendation
and dismissal from this Church in order to unite
with another Christian church.
c. Beulah may withdraw fellowship from a member
whose conduct (anything against God’s will)
makes it necessary for him to be excluded or
denied the privileges of membership.
ARTICLE IV. THE PASTOR.
Section 1. General Duties.
The Church shall elect a Pastor to carry out the
purpose of the Church as expressed in this
Constitution. He shall serve as overseer, leader,
advisor, and teacher. He shall seek to perform the
duties of this office with all fidelity and shall deal
impartially with all members and ministries of the
Church. He shall seek the advice of the official boards
regarding recommendations for policy and program
changes.
Section 2. Specific Duties.
1. To teach, counsel, and guide the members.
2. To preach the Gospel.
3. To administer the two ordinances of the
Church, as commanded in the New
Testament.
4. To conduct the weekday prayer and praise
services.
5. To insure that the annual program of the
Church is developed and implemented in

App. 114

6.

7.
8.
9.

accordance with the provisions of this
Constitution. The proposed annual program
shall be ready for discussion with the Deacon
Board in October and with the Joint Board in
November. The annual program shall be
presented to the Church for discussion and
adoption at the December Church
Conference.
To make an annual membership report to the
Church in December. This report will
indicate the total number of active members
including those added in each category and
number lost by any means during the
calendar year.
To serve as moderator of the Church
business meetings.
To serve as ex-officio member of all
committees, as set forth in Robert’s Rules of
Order.
To perform such other duties common to
Pastors in Missionary Baptist Churches.

Section 3.

Length of Service.

a. The Pastor shall serve until service is
discontinued by resignation, death, or dismissal.
b. Termination of service by dismissal requires
that two-thirds of the Church members present
at a meeting called for that purpose, vote to
dismiss the Pastor, provided that due notice has
been given to the Church at least two Sundays
in succession prior to the date of such meeting.

App. 115
Section 4. Filling a Pastoral Vacancy.
When a vacancy occurs in the pulpit, the Church
will appoint a committee comprised of seven members.
The Chairman of the Deacon Board will be an ex-officio
member of the committee. The committee shall compile
a list of qualified candidates and investigate each
candidate thoroughly. This list of qualified candidates
should be compared to a profile of the ideal Pastor for
Beulah, using I Timothy 3 as a guideline. After
determining the top candidates, the committee shall
visit the Church where the candidate is serving to
observe and listen to him in his normal setting.
Interviews shall be conducted with each top candidate
and the Church shall name the amount it is willing to
pay. After meditation and prayer, the committee shall
select the best qualified candidate and will make its
recommendation to the Church. The candidate(s) will
be invited to preach during at least one worship
service. The Church shall hold a meeting for the
express purpose of giving a call, after an announcement
of such meeting has been made to the Church at least
two Sundays in succession prior to the meeting.
a. At least three-quarters vote of all persons
present and qualified to vote shall be required
for calling of a Pastor.
b. The vote may be taken by standing or by ballot.
c. The election must be by free choice of the
members. They may ask and may accept advice,
but no person nor the pulpit committee members
may dictate to the Church how to vote.

App. 116
d. The candidate shall be informed of the outcome
of the vote.
ARTICLE V. OFFICIAL BOARD.
Section 1.

Deacons.

a. The church shall elect a Board of Deacons to
assist the Pastor as the Disciples assisted Christ.
Deacons shall be men who meet the qualifications
indicated in Acts 6:3 and I Timothy 3, “...men of honest
report, full of the Holy Ghost and wisdom.” Deacons
shall be chosen in the following manner:
1. The necessity of adding deacons to the board
and the number needed shall be brought to
the attention of the Church.
2. Any member of the Church, at a regular
Church meeting, can recommend a candidate
for deacon.
3. This recommendation will be referred to the
Deacon Board, who will investigate the
candidates and report their findings to the
Church by way of the Joint Board.
4. The elected deacon will serve until the
Church sees fit to relieve him for cause.
5. The Board of Deacons shall elect its own
officers annually and shall recommend to the
Church Nominating Committee its candidate
for Chairman, First Assistant Chairman, and
Second Assistant Chairman, to be voted on
by the Church.

App. 117
b. The duties of the Deacons shall be as follows:
1. Assist the Pastor in carrying out the program
of the Church.
2. Prepare and serve the Lord’s Supper in a
reverent manner.
3. Prepare baptismal pool and assist candidates
during baptism.
4. Submit to the Budget and Finance
Committee the projected amount of money
needed to carry out the Deacon’s mission
functions for the incoming year; distribute
these funds impartially; maintain records of
same; and, make an annual report to the
Church.
5. Visit the sick, elderly and those in need,
providing assistance when needed.
6. Know at all times the condition of the
Church, spiritually, financially, and
temporally.
7. Serve as Counselor for organizations,
providing guidance and informing the Pastor
of problem areas.
8. Serve as Ward Leader, communicating on a
regular basis with assigned members and
informing the Pastor of circumstances
requiring his attention.
9. Superintend the operation of the Church in
the absence of the Pastor.

App. 118
10.
11.

Insure that the Pastor is paid a salary
which is fair to him and the Church.
Attend all meetings of the Board and
serve as a member of the Joint Board and
Church Officers’ Council.

Section 2. Deaconesses.
a. The Church shall elect a Board of Deaconesses to
assist the Pastor with the spiritual leadership of the
Church. Except under special circumstances and on the
recommendation of the Pastor, these women shall be
the wife of a deacon and shall meet the same spiritual
qualifications as the deacons. When the need arises,
the Deaconess Board shall notify the Church of the
need to add to their number, and will conduct its own
investigation of the prospective members to be
recommended to the Church. The Deaconess Board
shall elect its own officers annually and shall
recommend to the Church Nominating Committee its
candidate for Chairman and Assistant Chairman, to be
voted on by the Church. A deaconess shall serve until
the Church sees fit to relieve her for cause.
b. The duties of the deaconess shall be as follows:
1. To assist the Pastor and Deacons in
ministering to individuals and families in
need.
2. To strive to lead others to salvation in Jesus
Christ.
3. To care for baptismal garments and linens,
Communion linens, and Communion
serviceware.
4. To assist female candidates at baptism.

App. 119
5. To visit, console, and counsel victims of error
and bereavement.
6. To assist in the religious training of the
members.
7. To attend all meetings of this board, the
Joint Board, and the Church Officers’
Council.
Section 3. Trustee Board.
a. The Trustee Board shall consist of ten registered
trustees and as many associate trustees as the Church
deems necessary. Trustees shall be elected annually by
the Church. Trustees shall elect their officers annually
and shall recommend to the Church Nominating
Committee its candidate for Chairman and Assistant
Chairman for election by the Church.
b. Trustees shall be members of the Church in good
standing, spiritually and financially. They shall be
persons of sound business sense and unquestionable
integrity.
c. The duties of the trustees shall be as follows:
1. To carry out lawful instructions received from
the Church in a regular or called meeting.
2. To review and/or sign all contracts and legal
documents on behalf of the Church and/or
required by the Government of the District of
Columbia.
3. To have responsibility for the acquisition,
maintenance, repair and replacement of all
church property.

App. 120
4. To pay all salaries and debts incurred by the
Church and such other disbursements as the
Church deems necessary.
5. To provide for an annual audit of the Church’s
financial records including the Treasurer’s and
Financial Secretary’s books and report the
findings to the Church.
6. To interview, negotiate, hire and terminate all
non-cleric, paid personnel for positions approved
by the Church.
7. To be present at all regular and called meetings
of this board and to serve as members of the
Joint Board and Church Officers’ Council.
Section 4. Joint Board. The official boards of the
Church are the Deacon Board, the Deaconess Board,
and the Trustee Board. These boards shall meet once
each month as the Joint Board. The purpose of these
meetings is to share information on the spiritual and
temporal condition of the Church, to act on matters
approved by the Church, and to prepare
recommendations to the Church for action.
ARTICLE VI. YOUTH MINISTRY.
Section 1. The Youth Minister, Assistant to the
Youth Minister, President, Vice-President, and
Secretary shall be the governing body of the Youth
Ministry. If there is no Youth Minister, the leader shall
be called the Youth Director.
A member of each of the following organizations
shall be represented in the Youth Ministry: Sunday
School, choirs, Young People’s Usher Board, Basketball
Team, Scouting Family, and any other ministries

App. 121
founded on the development of Christian values,
evangelism, discipleship, fellowship, and worship.
Section 2. The Youth Ministry will consist of all
youth between the ages of four through twenty-one.
Section 3. The mission of the Youth Ministry is:
1. To coordinate activities involving all youth
auxiliaries of Beulah Baptist Church.
2. To actively seek fellowship with other Christian
Youth groups in the DC area and vicinity.
3. To provide input into the selection of youth
delegates to the local, regional, and national
conventions.
4. To support the National Officers of the
Progressive National Baptist Convention Youth
Department and other local and state
conventions.
5. To educate youth about the principles of
Christianity and discipleship and to provide
training for their spiritual growth.
6. To support evangelistic and outreach programs.
7. To teach leadership skills to all youth and
provide leadership training for youth leaders.
8. To develop a mentoring relationship with Senior
Officers of the Church.
Section 4.
The Pastor will appoint a Youth Minister
and an Assistant to the Youth Minister. Officers shall
be voted on by the Youth body annually. The Youth
Officers are to possess qualities of spiritual leadership
outlined in I Timothy 3:1-7.
Section 5. The Youth Minister shall submit an
annual program to the Pastor by

App. 122
Section 3. Financial Secretary.
The Financial Secretary and Assistant Financial
Secretary shall be a member of the Trustee Board, and
shall be elected annually by the Church. The duties
shall be as follows:
1. Maintain a record of all church income and
disbursements.
2. Review vouchers for accuracy before making
disbursements.
3. Monitor the Church’s income and disbursements
to assure that the Church operates within its
budget.
4. Serve as a member of and advisor to the BudgetFinance Committee.
5. Provide the Budget-Finance Committee with the
necessary information to do its work.
6. Provide monthly, quarterly and annual financial
reports to the Pastor, Church, Joint Board and
Budget-Finance Committee.
Section 4. Group Counselors.
The Pastor shall appoint a counselor to any group
he deems appropriate. All counselors shall be selected
from the Deacon Board, Deaconess Board or the
Trustee Board. The counselor shall attend each
business meeting held by the group. The counselor
shall provide advice and guidance to the group
President and its members regarding church policy and
procedures, and shall make every effort to encourage
the ministry of the group. The counselor shall attempt
to resolve any problems arising within the group. If the
counselor is unable to resolve the matter within the
group, he shall immediately bring the matter to the
attention of the Pastor, who will decide the best course

App. 123
of action. In addition, the counselor shall confer each
month with the Pastor on matters within the group
which may affect the entire Church body.
ARTICLE VIII. THE CHURCH OFFICERS’ COUNCIL.
Section 1.
There shall be a Church Officers’ Council
composed of the presidents of all church organizations,
members of the official boards, and all officers elected
by the Church.
October 1 for the incoming year.
ARTICLE VII. OTHER CHURCH OFFICERS.
Section 1. Church Clerk.
The Church shall elect a Clerk annually. The Clerk
must be committed and accessible to the Pastor and
the members of the Church. The Church shall also
elect an Assistant Clerk annually to assist the Clerk in
carrying out the following duties:
1. Keep an accurate and current record of each
individual member.
2. Provide information to the Pastor necessary to
prepare his annual report of Church
membership.
3. Maintain and control the Church membership
record books and documents.
4. Insure that all notices are brought to the
attention of the members.
5. Send flowers or other appropriate expressions of
sympathy to the family of a deceased member or
to the member in the loss of a spouse, parent,
child, or sibling.

App. 124
6. Assist bereaved families in preparing documents
for funerals, if requested.
Section 2. Treasurer.
The Church shall elect a Treasurer annually to
receive all monies and to give receipt for same. The
Treasurer must keep an accurate record of all financial
transactions and deposit all money in the bank on the
next banking day following the receipt of money. He
shall make a semi-annual report to the Church and
monthly reports to the Joint Board. The Church may
request additional reports or review the financial
records at any time. Bank statements, canceled checks
and vouchers should be available at the time reports
are made. The Treasurer will also implement
acceptable recommendations made by the Audit
Committee. The Church shall elect an Assistant
Treasurer to serve in the absence of the Treasurer.
Both the Treasurer and the Assistant Treasurer shall
be bonded.
Section 2.

The Church Officers’ Council shall:

a. Assist in developing the annual program of the
church.
b. Evaluate the total Church Program as well as
specific church activities throughout the year;
and,
c. Evaluate all proposals referred to them during
a regular church conference and make
recommendations to the Church membership
either the inclusion of the proposal in the
Church Program or the rejection of the proposal.

App. 125
Section 3.
Each Council member shall communicate
to the Pastor and to the Joint Board the needs,
questions, and suggestions of individuals of their
respective groups. They shall also communicate to their
groups new ideas, proposals, and suggestions from the
Council and the Joint Board.
Section 4. The Church Officers’ Council shall meet
prior to each regular Church Conference and at any
other time that the need arises. The Pastor shall set
the date and time for each meeting.
Section 5.
The Pastor shall preside over all meetings
of the Church Officers’ Council. The body shall elect a
secretary from its membership.
ARTICLE IX. BUDGET-FINANCE COMMITTEE.
Section 1. The Budget-Finance Committee will
consist of the chairman of the Deacon Board, chairman
of the Trustee Board, Church Treasurer, Church
Financial Secretary, Financial Secretary of the Sunday
School, Deacon’s Mission Fund Treasurer, Chairman of
the Board of Christian Education, and one or more
members of the Church elected for a two-year term, one
of whom shall serve as the chairman of this committee.
Section 2. The Budget-Finance Committee shall
prepare the proposed budget for the incoming year
based upon information received in reports prepared by
the Church Financial Secretary during the current
year and requests for funds from individuals and
groups within the Church. The Committee shall
prayerfully consider each request and the needs of the
Church. Budget requests from groups and individuals
shall be made by September 1.

App. 126
Section 3. The committee shall meet as often as
necessary to carry out its responsibilities.
Section 4. The committee will prepare a proposed
budget for the incoming year not later than September
30 of the current year, and will schedule at least one
budget hearing prior to the December Church
conference. The budget hearing(s) shall be open to any
member in good standing.
ARTICLE X. BOARD OF CHRISTIAN EDUCATION.
Section 1. The Pastor, deacons, and deaconesses
shall insure that the church has a strong educational
program.
Section 2. The Board of Christian Education shall
consist of a Director, Assistant Director, Secretary,
Dean of B.I.B.L.E. Institute, Director of Vacation Bible
School, Assistant Director of Vacation Bible School,
and representatives from each educational
organization of the church. Officers will be elected
annually by the church.
Section 3. The mission of the Board of Christian
Education shall be:
1. To make the educational program a part of the
entire program of the church.
2. To make the congregation aware of the Church’s
educational programs.
3. To enlist, train, and utilize as many persons as
can effectively be used in the program of
education.

App. 127
4. To provide a clear line of accountability through
records and reports. All reports are to be turned
in at the end of an activity to the Joint Board.
5. To make provisions for curriculum material,
audio-visual equipment, and supplies.
6. To establish and maintain a library to be used
by members of the Church.
7. To establish guidelines for selection of delegates
and chaperones to the local, regional, and
national conventions.
8. To establish guidelines for awarding
scholarships and financial aid.
Section 4. Each year the church will elect a
Superintendent of the Sunday School, Assistant
Superintendent (or Departmental Superintendents),
Director, and Assistant Director of the Vacation Bible
School, and Dean of the B.I.B.L.E. Institute.
Section 5.
The Sunday School shall provide religious
instruction for the youth and adults. The basic
textbook of the Sunday School shall be the Holy Bible,
but this body may select other materials, equipment,
and visual aids to carry on an effective, organized
effort. The Sunday School is supervised by the Board of
Christian Education. The Sunday School shall exercise
independence in the election of officers, other than
Superintendent and Assistant Superintendent (or
Departmental Superintendents), adoption of teaching
methods, and governance, subject to Board approval.
Section 6. The B.I.B.L.E. Institute or some other
appropriate organization shall provide classes for
members to study and acquire knowledge necessary to
be a better and more effective Christian. This body may

App. 128
elect a staff, select its materials, and carry on its
program under the auspices of the Board of Christian
Education and subject to approval by the Church.
Section 7.
Every summer, the Vacation Bible School
shall provide religious instruction through literature
and crafts. The Director and Assistant Director shall
recruit and train staff, select materials, and carry on
the program subject to Board approval.
ARTICLE XI. MUSIC MINISTRY.
Section 1. The Pastor, deacons, and deaconesses
shall be responsible for the music used at all worship
services. They shall communicate to the Minister of
Music and/or the Music Council the types of music to
be used for the various singing groups and types of
worship services. They shall insure that all paid
musicians are born again Christians and are
committed to their service at Beulah.
Section 2. The Music Ministry membership shall
consist of all members of the singing groups and
instrumental groups in the Church and the members
of the Music Council.
Section 3. The Music Council shall consist of the
Minister of Music, all musicians, all presidents of the
singing groups and instrumental groups, a deacon, a
deaconess, all singing group counselors, and a trustee.
The Minister of Music shall serve as chairman of the
council.
Section 4.
The purpose of the Music Council shall be
to provide the best possible program of worship music
for the Church. The Council shall insure that no

App. 129
talents or needs are overlooked in the ministry. They
shall notify the Trustee Board regarding the service or
replacement of instruments, purchase of hymnals or
need to fill a musician vacancy.
Section 5. If a problem should arise in a choir or
instrumental group, the president shall inform the
group’s counselor. A meeting shall be called and shall
include the Minister of Music and the group counselor.
If no agreement is reached, the group counselor shall
confer with the deacon and deaconess representative of
the Music Council and the Pastor for final resolution.
ARTICLE XII. NOMINATING COMMITTEE.
The Church shall elect a Nominating Committee at
the March Church Conference. The committee will
bring in recommendations for church officers to be
elected at the December Church Conference. This
committee shall consist of seven members. Four
members, not necessarily deacons, will be
recommended by the Deacon Board by way of Joint
Board, and three members shall be nominated from the
floor at the March Church Conference.
ARTICLE
GROUPS.

XIII.

GUIDELINES

FOR

CHURCH

Each group or ministry, except the Music Ministry
(which is governed by the “Guidelines of the Music
Ministry”) must write a set of by-laws by which it will
be governed. These by-laws shall include: name of
organization, purpose, members, officers, meetings,
dues and how they are spent, committees,
parliamentary authority, and method of amending bylaws. These by-laws must not be in conflict with this

App. 130
Constitution and shall be reviewed by the Joint Board
and accepted by the Church.
ARTICLE XIV. CHURCH ORDINANCES - BAPTISM
AND COMMUNION.
Section 1. The Church observes two ordinances
instituted by our Lord, baptism and communion.
Section 2.
All persons who have been regenerated by
the Holy Spirit, and on a profession of faith in Jesus
Christ, shall be baptized. Baptism shall be by
immersion.
Section 3.
This Church shall observe Communion or
the Lord’s Supper in order that all who are baptized
believers in Jesus Christ obey His command, “... this do
ye... in remembrance of me...” The Communion Service
shall be “open”, which permits anyone who believes
himself qualified to come to the Lord’s table to do so,
without any questions being asked or conditions
imposed by the Church.
ARTICLE XV. CHURCH COVENANT.
The Church shall use the following responsory form
when reciting the Church Covenant:
Minister:

By what common and gracious
experiences do we enter into spiritual
fellowship and covenant relations with
God and with one another?

Congregation:

Having been led, as we believe, by the
spirit of God, to receive the Lord Jesus
Christ as our Saviour, and on the
profession of our faith, having been

App. 131
baptized in the name of the Father,
and of the Son, and of the Holy Ghost,
we do now in the presence of God,
Angels, and this Assembly, most
solemnly and joyfully enter into
covenant with one another, as one
body in Christ.
Minister:

What is the great bond of our union
with our God and each other?

Congregation:

We engage, therefore, by the aid of the
Holy Spirit, to walk together in
Christian love.

Minister:

What are the great privileges and
duties in this our own Church?

Congregation:

To strive for the advancement of this
church in knowledge, holiness, and
comfort; to promote its prosperity and
spirituality, to sustain its worship,
ordinances, discipline and doctrines.

Minister:

What vows do we gladly make as
stewards of that which God has
entrusted to us?

Congregation:

To contribute cheerfully and regularly
to the support of the ministry, the
expenses of the Church, the relief of
the poor, and spread of the Gospel
throughout all nations.

App. 132
Minister:

For the sake of our homes and our
loved ones, what gracious tasks do we
humbly assume?

Congregation:

We also engage to maintain family
and secret devotion; to educate
religiously our children; to seek the
salvation of our kindred and
acquaintances.

Minister:

For the sake of the unsaved for whom
the Saviour died, to what manner of
life and conversation are we solemnly
and sincerely pledged?

Congregation:

To walk circumspectly in the world; to
be just in our dealings, faithful in our
engagements, and exemplary in our
deportment; to avoid all tattling,
backbiting and excessive anger; to
abstain from the sale and use of
intoxicating drink as a beverage, and,
to be zealous in our efforts to advance
the kingdom of our Saviour.

Minister:

Since one is our Master, even Christ,
and all we are brethren, by what
fraternal ministries are we to
strengthen each other and adorn the
teachings of our Lord and Saviour?

Congregation:

We further engage to watch over one
another in brotherly love, to
remember each other in prayer, to aid
each other in sickness and distress, to
cultivate christian sympathy in feeling

App. 133
and courtesy in speech, to be slow to
take offense, but always ready for
reconciliation, and mindful of the
rules of our Saviour to seek it without
delay.
Minister:

If for any reason we shall remove our
membership from this church, what
would be our future obligation?

Congregation:

We moreover engage that when we
remove from this place, we will as
soon as possible unite with another
church of the same faith where we can
carry out the spirit of the covenant
and principles of God’s Word.

Minister and Congregation:
Humbly confessing our past sins, we
pray for grace and strength to keep
our holy vows for the sake of Jesus
Christ our Lord. Amen.
ARTICLE XVI. CHURCH DISCIPLINE.
We shall follow these steps when discipline is
necessary:
1. When a complaint or report of unchristianlike
conduct comes to the attention of the Church, it
will be referred to the Deacon Board or
Deaconess Board.
2. The Board to which the matter has been
referred will take appropriate action to try to
correct the situation in the most Christian
manner.

App. 134
3. If the Deacon Board or Deaconess Board cannot
resolve the complaint alone, the Pastor and
other boards will be called in for counsel.
4. In the event all efforts fail, the Pastor, Deacons,
and Deaconesses will recommend the case to the
Church for disciplinary action.
5. If the complaint is against any person or persons
on this joint spiritual board, that person or
persons will be excluded from taking part in the
recommendation.
ARTICLE XVII. ELECTIONS.
Each December, an election of Church officers will
be held. The term will begin in January following the
election and end in December. In the event of a
vacancy, such vacancy shall be filled by appointment
within one month by the Pastor, with approval of the
Joint Board.
ARTICLE XVIII. MEETINGS.
Section 1.
Worship Service. Public services shall be
on each Sunday, the Lord’s Day. Communion Service
shall be celebrated on every second Sunday after each
morning service. The Church shall hold at least one
weekly prayer and/or praise service.
Section 2. Quarterly Church Conferences shall be
held on the Friday before the second Sunday in March,
June, September, and December.
ARTICLE XIX. CHURCH YEAR.
The fiscal year of the Church shall be the Calendar
year.

App. 135
ARTICLE XX. AMENDMENTS.
All amendments to this Constitution must be
presented to the Church in a regular Church
Conference and referred to the Joint Board for study.
At the conclusion of its study, the Joint Board will
make recommendations at the next Church Conference
to accept, reject or change the proposed amendment(s).
Announcements regarding the pending action must be
made at each worship service, beginning at least two
weeks prior to the Church Conference. In addition, a
copy of the proposed amendment(s) will be mailed to
the entire membership. Three-fourths of the members
present at the Church Constitution must vote in favor
of the amendment for it to become part of the
Constitution.
Constitution Committee Members
Alice S. Jennings, Chairman
Louise Cephus
Jennifer L. Jones
Russell Moore, Jr.
Henry G. Rose, Jr.
Southall E. Seay, Sr.
Reesie Thomas
Nikki Williams
Rev. Moses L. Jackson, Jr., Pastor
Constitution Adopted November 8, 1997

